      Department of Homeland Security





    The U.S. Virgin Islands Management of State Homeland
     Security Program Grants Awarded During Fiscal Years
                         2007 through 2009




OIG-12-29                                    January 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                 JAN 30 2012

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses The U.S. Virgin Islands’ management of State Homeland Security
Program grants. We contracted with the independent public accounting firm Foxx &
Company to perform the audit. The contract required that Foxx & Company perform its
audit according to generally accepted government auditing standards. Foxx &
Company’s report identifies eight areas where management of the grant funds could be
improved, resulting in 22 recommendations addressed to the Assistant Administrator,
Grant Programs Directorate. Foxx & Company is responsible for the attached auditor’s
report dated January 9, 2012, and the conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
January 9, 2012

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Ms. Richards: 


Foxx & Company performed an audit of the U.S. Virgin Islands management of the 

Department of Homeland Security’s State Homeland Security Program grants for Fiscal 

Years 2007 through 2009. The audit was performed in accordance with our Task Order 

No. 0012 under TPD-FIG-BPA-07-0007 dated September 27, 2010. This report presents 

the results of the audit and includes recommendations to help improve the Territory’s 

management of the audited State Homeland Security Program grants. 


Our audit was conducted in accordance with applicable Government Auditing Standards,

2007 revision. The audit was a performance audit as defined by Chapter 1 of the 

Standards and included a review and report on program activities with a compliance 

element. Although the audit report comments on costs claimed by the U.S. Virgin 

Islands, we did not perform a financial audit, the purpose of which would be to render an 

opinion on the U.S. Virgin Islands financial statements or the funds claimed in the 

Financial Status Reports/Federal Financial Reports submitted to the Department of 

Homeland Security. 


We appreciate the opportunity to have conducted this audit. Should you have any 

questions, or if we can be of any further assistance, please call me at (513) 639-8843. 


Sincerely,

Foxx & Company 




Martin W. O’Neill
Partner
Table of Contents/Abbreviations


Executive Summary .......................................................................................................... 1


Background ....................................................................................................................... 2 


Results of Audit ................................................................................................................ 3 


           Territory Grants Management Practices Need Improvement ............................... 3 


           Strategic Goals and Objectives ............................................................................. 3 

           Recommendations ................................................................................................ 7 

           Management Comments and Auditors’ Analysis ................................................. 7 


           Sole Source Procurement and Management of Contract Deliverables ................. 8 

           Recommendations .............................................................................................. 11 

           Management Comments and Auditors’ Analysis ............................................... 11 


           Financial Management Documentation .............................................................. 13 

           Recommendations .............................................................................................. 15 

           Management Comments and Auditors’ Analysis ............................................... 16 


           Property Management Controls and Accountability .......................................... 17 

           Recommendations .............................................................................................. 19 

           Management Comments and Auditors’ Analysis ............................................... 20 


           Use of Purchased Equipment .............................................................................. 21 

           Recommendations .............................................................................................. 23 

           Management Comments and Auditors’ Analysis ............................................... 23 


           Procurement of Training ..................................................................................... 24 

           Recommendations .............................................................................................. 26 

           Management Comments and Auditors’ Analysis ............................................... 26 


           Personnel Time Charges ..................................................................................... 27 

           Recommendations .............................................................................................. 30 

           Management Comments and Auditors’ Analysis ............................................... 30 


           Filing Financial Reports ..................................................................................... 32 

           Recommendation ................................................................................................ 33 

           Management Comments and Auditors’ Analysis ............................................... 33 


           High Risk Grantee ..............................................................................................        34 

           Conclusion ..........................................................................................................   37 

           Recommendations ..............................................................................................          38 

           Management Comments and Auditors’ Analysis ...............................................                              39 

Table of Contents/Abbreviations


 Appendices
   Appendix A:   Purpose, Scope, and Methodology ...............................................               41 

   Appendix B:   Management Comments to the Draft Report ...............................                       44 

   Appendix C:   Homeland Security Grant Program Background ..........................                         63 

   Appendix D:   Potential Monetary Benefits .........................................................         64 

   Appendix E:   U.S. Virgin Islands Administrative Agency Organization Chart .                                65
   Appendix F:   Report Distribution .......................................................................   66

 Abbreviations
   DHS           Department of Homeland Security
   FEMA          Federal Emergency Management Agency
   FY            fiscal year
   OIG           Office of Inspector General
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
              Public Law 110-53, Implementing Recommendations of the 9/11
              Commission Act of 2007, requires the Department of Homeland
              Security, Office of Inspector General, to audit individual states’ and
              territories’ management of State Homeland Security Program and
              Urban Areas Security Initiative grants. This report responds to the
              reporting requirement for the U.S. Virgin Islands.

              The objectives of the audit were to determine if the U.S. Virgin Islands
              distributed and spent State Homeland Security Program grant funds
              (1) effectively and efficiently and (2) in compliance with applicable
              federal laws and regulations. We were to also address the extent to
              which grant funds enhanced the U.S. Virgin Islands’ ability to prevent,
              prepare for, protect against, and respond to natural disasters, acts of
              terrorism, and other man-made disasters. The audit included a review
              of approximately $4.6 million in State Homeland Security Program
              grants awarded to the U.S. Virgin Islands during fiscal years 2007
              through 2009.

              The U.S. Virgin Islands did not do an efficient and effective job of
              administering program requirements in accordance with grant guidance
              and regulations. We identified eight areas for improvement: strategic
              goals and objectives, sole source procurement and management of
              contract deliverables, financial management documentation, property
              management controls and accountability, use of purchased equipment,
              procurement of training, personnel time charges, and filing financial
              reports. As a result, we questioned $1,291,486 for specific items
              claimed and consider the entire $3,429,214 drawn down for fiscal years
              2007, 2008, and 2009 as potential questioned costs until the U.S. Virgin
              Islands provides adequate support for the funds. We concluded that the
              Federal Emergency Management Agency (FEMA) should consider
              classifying the U.S. Virgin Islands as a high risk grantee because of the
              numerous problems noted in our audit.

              FEMA concurred with our 22 recommendations to initiate
              improvements which, when implemented, should help strengthen
              program management, performance, and oversight. Written comments
              to the draft report are incorporated as appropriate and included in their
              entirety in appendix B.

           The U.S. Virgin Islands Management of State Homeland Security Program 

                    Grants Awarded During Fiscal Years 2007 through 2009 


                                          Page 1
Background
                The Homeland Security Grant Program provides federal funding to
                help state, territory, and local agencies enhance capabilities to
                prevent, protect against, respond to, and recover from terrorist
                attacks, major disasters, and other emergencies. Appendix C
                provides background on the Homeland Security Grant Program

                The U.S. Virgin Islands (Territory) received $5.6 million in
                Homeland Security Grant Program funds during fiscal years (FYs)
                2007, 2008, and 2009. This included $4.6 million in State
                Homeland Security Program funds, which were managed by the
                State Administrative Agency.

                Prior to June 2009, the Adjutant General of the Virgin Islands
                National Guard was the executive head of the Virgin Islands
                Territorial Emergency Management Agency, the State
                Administrative Agency. The Director of Virgin Islands Territorial
                Emergency Management Agency and the Director of the Virgin
                Islands Office of Homeland Security coordinated activities through
                the Adjutant General.

                On June 22, 2009, the U.S. Virgin Islands legislature passed Act
                No. 7074 which reorganized responsibility for emergency
                management. The Virgin Islands Territorial Emergency
                Management Agency was designated as the lead agency for
                emergency response with responsibilities as the State
                Administrative Agency. The Office of Homeland Security was
                merged into the Virgin Islands Territorial Emergency Management
                Agency. The Virgin Islands Territorial Emergency Management
                Agency Director is responsible for coordinating the entire
                emergency management program for the Territory.

                The Homeland Security Grant Program grants included in our
                audit scope were administered under the prior organizational
                structure until September 2009 when the reorganization was
                completed. The organization as restructured is depicted in
                appendix E. None of the funds were awarded to subgrantees over
                the 3-year audit period. Appendix A provides details on the
                purpose, scope, and methodology for this audit.




        The U.S. Virgin Islands Management of State Homeland Security Program 

                 Grants Awarded During Fiscal Years 2007 through 2009 


                                       Page 2
Results of Audit
     Territory Grants Management Practices Need Improvement
          The Territory did not do an efficient and effective job of administering
          program requirements in accordance with grant guidance and regulations.
          The Territory needs improvement in several areas to enhance the
          Territory’s management of the grants including:

            •   Strategic goals and objectives
            •   Sole source procurement and management of contract deliverables
            •   Financial management documentation
            •   Property management controls and accountability
            •   Use of purchased equipment
            •   Procurement of training
            •   Personnel time charges and
            •   Filing financial reports

          As a result, we questioned a total of $1,291,486 for specific items claimed
          by the Territory identified during the audit. In addition, we considered the
          entire $3,429,214 drawn down for FYs 2007, 2008, and 2009 awards as
          “at risk” as potential questioned costs until the Territory provides adequate
          support for the funds.

          In recognition of the significance of improvements needed in the areas
          listed above, Foxx & Company concluded that FEMA should consider
          classifying the Territory as a high risk grantee until the Territory
          implements program controls for safeguarding funds, and reasonably
          ensures that the grant funds are used for their intended purpose.

          Our 22 recommendations call for FEMA to initiate improvements which,
          when implemented, should help strengthen program management,
          performance, and oversight. These improvements will enhance the
          effectiveness of the Territory’s overall use of the grant funds to improve
          preparedness and response capabilities and reduce the risk associated with
          the Territory’s management of FEMA grant funds.

     Strategic Goals and Objectives
          The U.S. Virgin Islands Homeland Security strategies for FYs 2007
          through 2009 grant periods were not current and contained inaccurate
          information. The strategies were identical for each year and contained
          goals and objectives with target completion dates that had already passed.
          The strategies were copied from previous strategies and contained

          The U.S. Virgin Islands Management of State Homeland Security Program 

                   Grants Awarded During Fiscal Years 2007 through 2009 


                                         Page 3
information that was no longer pertinent. In addition, the FY 2009 grant
application was based on a June 2007 draft strategy which was not
submitted to or approved by FEMA.

Code of Federal Regulations Title 44 §13.40(a)(b), monitoring and
reporting program performance, requires grantees to report grant program
performance, comparing actual accomplishments to established objectives.
In addition, Department of Homeland Security (DHS) State and Urban
Area Homeland Security Strategy Guidance on Aligning Strategies with
the National Preparedness Goal, dated July 22, 2005, states that an
objective sets a tangible and measurable target level of performance over
time against which actual achievement can be compared, including a goal
expressed as a quantitative standard, value, or rate. Therefore, an
objective should be:

    •	 Specific, detailed, particular, and focused — helping to identify
       what is to be achieved and accomplished;
    •	 Measurable — quantifiable, providing a standard for comparison,
       and identifying a specific achievable result;
    •	 Achievable — the objective is not beyond a state, region, 

       jurisdiction, or locality’s ability; 

    •	 Results-oriented — identifies a specific outcome; and
    •	 Time-limited — a target date exists to identify when the objective
       will be achieved.

With respect to updating state strategies, the Strategy Guidance recognized
the value of each state having an ongoing process of review and
refinement as new lessons are learned, new priorities are realized, and new
homeland security guidance is issued. The Strategy Guidance stated that
updated State and Urban Area Homeland Security Strategies will then
provide a context for performing the strategic exercise of asking “How are
we organized?” and “How are we managing our homeland security
programs?”

The FY 2009 Homeland Security Grant Program Guidance and
Application Kit states that use of State Homeland Security Program funds
must be consistent with and supportive of implementation of the state
homeland security strategy and state preparedness report. Linkages
between specific projects undertaken with State Homeland Security
Program funds and strategic goals and objectives will be highlighted
through regular required reporting mechanisms, including the Biannual
Strategy Implementation Report.




The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 4
The following events led to a condition of questionable usefulness of the
U.S. Virgin Islands’ strategy:

    •	 The individual strategies for FYs 2007 through 2009 were
       approved by FEMA but did not include the date of FEMA’s
       approval. The strategies were identical, including 10 goals and
       43 objectives that were identical for each year.

    •	 The application packages (investment justifications) for FYs 2007
       and 2008 contained different dates for goals and objectives than
       the dates contained in the strategies. The grant application
       packages for FYs 2007 and 2008 contained goals and objectives
       that referenced and aligned with the strategies approved by FEMA.
       As shown below, all of the milestone completion dates were in
       2006, which was before the grant award dates for FYs 2007
       through 2009:
        o	 Strategic Goal 3 for all three years had a target completion
            date of July 2006;
        o	 Goals 6, 7, 8, and 10 for all three years had target completion
            dates of December 2006; and
        o	 Objectives under goals 2, 3, 4, 6, and 9 for each of the three
            years had target completion dates of February, April, May,
            June, July, August, October, and December 2006.

    •	 Although the U.S. Virgin Islands contracted to have a revised
       strategy developed for FY 2009 at a cost of $77,000, Virgin
       Islands Territorial Emergency Management Agency officials could
       not provide evidence that the revised strategy was prepared and
       submitted to FEMA. Additionally, the FEMA Program Analyst
       for the Virgin Islands did not receive the revised strategy for
       approval.

    •	 The State Administrative Agency Director said that the FEMA
       approved strategy for FY 2009 was used to prepare the application
       for the FY 2009 award. However, our review of the FY 2009
       application indicated that the application was aligned with the draft
       revised strategy and not the FEMA approved strategy.

This draft revised strategy used to prepare the FY 2009 grant application,
contained different goals and objectives than the FEMA approved
strategies for FY 2007 through 2009. Examples are included in table 1.




The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 5
Table 1: Comparison of Draft Revised Strategy to FEMA Approved Strategy
                                              FEMA Approved Strategies
          Draft Revised Strategy
                                                     FYs 2007-2009
 Goal #1: Enhance Weapons of Mass Goal #1: Develop and Institute an
 Destruction & Hazardous Materials      Aggressive Infrastructure Protection
 Response and Decontamination           Plan.
 Capability.
 Goal #2: Improve the                   Goal #2: Develop/enhance Territorial
 interoperability of territorial        Quick Response Teams, EOD, and
 communications functions for “all-     SWAT capabilities to respond to the
 hazards” responses, enhance the        consequences of a Weapons of Mass
 communication capability among all     Destruction (WMD) incident where
 first responder agencies in a multi-   local resources are not available, or
 disciplinary environment, and          are inadequate; 1 team on each island
 enhance the territory’s 911 system.    (size may vary), for response to all
                                        WMD incidents.
 Goal #3: Develop a territory-wide      Goal #3: Identify training
 medical surge capability to rapidly    requirements by discipline, for WMD
 expand the capacity of the existing    response levels. Identify all potential
 healthcare system in order to handle a candidates for each level of WMD
 catastrophic event or major incident.  training by July 2006.
 Goal #4: Develop an Intelligence       Goal #4: Ensure Jurisdictions
 Information Sharing Fusion Center to conduct/participate in WMD exercises
 produce up-to-date threat,             to ensure a maximum level of
 vulnerability, and risk information.   readiness for all response agencies and
                                        disciplines.
 Goal #5: Ensure that “All-Hazards”     Goal #5: Continue to improve the
 Emergency Management and Critical interoperability of territorial
 Infrastructure Protection planning     communications functions for WMD
 and programs are maintained and        response providing for interoperable
 enhanced territory-wide.               capability among all first responder
                                        agencies in a multi-disciplinary
                                        environment and the enhancement of
                                        the Territory's 9-1-1 system.

The draft revised strategy also contained different milestones. U.S. Virgin
Islands officials could not explain why the outdated strategies were used
for FY 2007 and 2008 grant applications. The State Administrative
Director told us that he thought the draft revised strategy was submitted to
FEMA but could not provide specific information regarding when or who
submitted the strategy. He also told us that he was uncertain whether the
draft revised strategy was used to prepare the application for FY 2009
grant funds. The statements by the State Administrative Agency Director
indicates a lack of knowledge of how the applications were prepared and if
the draft revised strategy was submitted to FEMA for approval.

The grant applications for FY 2007 and FY 2008 did not reflect an
updated strategy as required by the strategic guidance but instead used an
The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 6
out of date strategy which contained target completion dates that occurred
prior to the date of the grant awards. The FY 2009 application was based
on an updated strategy but the strategy was not approved by FEMA. By
basing requested funds contained in each of the fiscal year applications on
either an outdated strategy or a strategy not approved by FEMA, the
grantee requested funds based on goals and objectives unknown to FEMA
and without assurance that the goals and objectives aligned with national
priorities.

The use of outdated strategies and a strategy not approved by FEMA
created an environment that made it difficult to measure improvements in
preparedness and response. The basis for measuring improvements was
unclear. It further made it difficult to provide a context for performing the
strategic exercise of asking “How are we organized?” and “How are we
managing our homeland security programs?” as set forth in the DHS State
and Urban Area Homeland Security Strategy Guidance on Aligning
Strategies with the National Preparedness Goal.

Recommendations
        We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director of the Virgin Islands Territorial
        Emergency Management Agency to:

        Recommendation #1: Prepare a revised strategy that includes:
        (a) the Territory’s current goals and objectives for enhancing its
        ability to prevent, prepare for, protect against, and respond to
        natural disasters, acts of terrorism, and other man-made disasters,
        and (b) goals and objectives that are specific, measurable,
        achievable, results-oriented, and time-limited.

        Recommendation #2: Submit the strategy for FEMA’s approval
        and use the revised, approved strategy to prepare future grant
        applications (investment justifications).

Management Comments and Auditors’ Analysis
        FEMA concurred with recommendations 1 and 2 and stated that
        the Virgin Islands Territorial Emergency Management Agency
        revised the Territory’s Homeland Security Strategy in July 2011
        prior to submitting its FY 2011 Homeland Security Grant Program
        application. FEMA stated that the strategy includes current goals
        and objectives that enhance the Territory’s ability to prevent,
        prepare for, and respond to natural and man-made disasters and
        acts of terrorism. FEMA stated that the strategy goals and

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 7
             objectives are specific, measurable, achievable, results oriented,
             and time limited. FEMA will continue to assist the Virgin Islands
             Territorial Emergency Management Agency Director with strategy
             updates as needed. FEMA requested that recommendations 1 and
             2 be resolved and closed.

             Virgin Islands officials did not agree with recommendations 1 and
             2. The officials said that an updated plan already has been
             approved by the federal grantor agency. However, they also said
             that the there is no evidence that the plan for the period in question
             had been updated or submitted in the Grants Reporting Tool. The
             officials provided documents which indicated the plan had been
             provided to them by a contractor. The officials claimed that the
             Territory would not have had its investment justification and award
             approved without FEMA’s knowledge of the updated plan as this
             is a regulatory prerequisite. Initially in their comments, the Virgin
             Islands officials said they do not have evidence of the approval.
             However, later in their comments, the Virgin Islands officials said
             they have received written approval from FEMA as required. The
             officials provided a copy of the strategic plan for 2011-2014 and
             documentation that the plan was approved by FEMA.

             We reviewed the new strategy and concluded that although some
             of the goals and objectives could be improved, most of the goals
             and objectives are in accordance with the criteria. The Virgin
             Islands officials also included an annual evaluation process as part
             of the strategic plan. Annual evaluations are intended to ensure
             that improvements are being made and that the progress towards
             the goals and objectives is being tracked and measured. This
             annual evaluation is an important addition to the plan. The actions
             taken by FEMA and Virgin Islands officials are responsive to
             address the recommendations. These recommendations are
             resolved and closed.

Sole Source Procurement and Management of Contract
Deliverables
     The U.S. Virgin Islands spent $472,167 for professional services without
     competition. The sole source justification for the procurement award was
     based on the reputation of the contractor, and that the State Administrative
     Agency had worked with the contractor previously. The Virgin Islands
     State Administrative Agency did not receive a cost proposal from the
     contractor, nor did the Virgin Islands State Administrative Agency
     perform a cost analysis before funds totaling $472,167 were spent on the
     procurements.

     The U.S. Virgin Islands Management of State Homeland Security Program
              Grants Awarded During Fiscal Years 2007 through 2009

                                    Page 8
According to the current Director, the former State Administrative Agency
Director verbally directed the contract scope of work to focus on the
development of a reorganization plan. Documentation supporting the
direction of the contractor’s work and other activities relating to the
contract were not maintained by the State Administrative Agency. As a
result, the procurement was not in compliance with federal requirements,
and the State Administrative Agency may have paid more than necessary.
With the exception of a reorganization plan, which was not specifically set
forth in the deliverables, documentation was not provided to support if any
of the deliverables were provided. Accordingly, we consider the $472,167
expended for this procurement to be a questioned cost.

The contract scope of work included six deliverables. The Director of the
State Administrative Agency said that two of the six deliverables involved
analysis and development of documents that were not completed by the
contractor. The first deliverable was to develop standard operating
procedures for response in keeping with the National Response
Framework. Specifically, the contractor was to use a gap analysis to
determine baseline Territorial capabilities and complete a territorial and
federal validation capabilities assessment. The second deliverable was to
assist and guide the Territory through the process of developing a detailed
detection response and decontamination document, to review and help re­
write Standard Operating Procedures, and to develop a pre-scripted
mission check list for Chemical, Biological, Radiological, Nuclear, and
Explosive events. The other four deliverables were intangible,
immeasurable activities. One of these deliverables provided for
consultation on management planning and protocol matters, including
organizational assessments of agencies, review of organizational structural
effectiveness, staffing analysis, and general support. This deliverable did
not call for a detailed assessment that resulted in a reorganization plan.

Code of Federal Regulations Title 44 §13.36(c)(1) requires that all
procurement transactions be conducted in a manner providing full and
open competition. When competition is not used, Code of Federal
Regulations Title 44 §13.36(f)(1) requires that a cost analysis be
conducted when adequate price competition is lacking and for sole source
procurements.

In addition, Code of Federal Regulations Title 44 §13.42(a) requires that
grantees maintain all financial and programmatic records, supporting
documents, statistical records, and other records which are required to be
maintained by program regulations or the grant agreement, or otherwise
reasonably considered as pertinent to program regulations or the grant
agreement. Records must be retained for 3 years from the day the grantee
or subgrantee submits to the awarding agency its single or last expenditure

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 9
report for that period. Code of Federal Regulations Title 44 §13.36(9)
states that grantees and subgrantees will maintain records sufficient to
detail the significant history of a procurement.

Department of Homeland Security’s Financial Management Guide dated
January 2006, Page 41, under Procurement, Adequate Competition, states
that “All sole-source procurements in excess of $100,000 must receive
prior written approval of the awarding agency.” The Guide further states
that a “Justification must be provided for non-competitive procurement
and should include a description of the program and what is being
contracted for, an explanation of why it is necessary to contract
noncompetitively, time constraints and any other pertinent information.
G&T [Grants and Training – a former DHS agency whose functions have
since been transferred to FEMA] will approve sole-source procurements
for direct recipients only.”

On May 28, 2008, the U.S. Virgin Islands entered into a procurement that
eventually cost $472,167. The contractor was selected without
competition and justified on prior experience with the contractor. The
State Administrative Agency Director prepared a justification letter to the
Virgin Islands Department of Property and Procurement for approval of
the sole source procurement. The letter stated that the contractor was
vetted and approved by DHS to enter into federally funded contracts and
that the State Administrative Agency had contracted with the firm
previously. The letter further stated that based on the contractor’s
references, capabilities, knowledge, and prior deliverables to the State
Administrative Agency, it was chosen for the sole source procurement.
On the basis of this letter the sole source procurement was approved by
the Virgin Islands Department of Property and Procurement. FEMA did
not approve this sole source procurement. Also, a cost analysis was not
performed for the sole source procurement as required by regulations.

According to the current Director, the former State Administrative Agency
Director directed the contractor to develop a reorganization plan for the
State Administrative Agency. The redirection of the contractor to develop
a reorganization plan was not documented in contract records maintained
by the State Administrative Agency. This effort involved gathering
information about the existing structure and developing a proposed
reorganizational structure. Although the scope of work provided for
consultation services including the review of organizational structure
effectiveness, staffing analysis, and general support, the scope did not
specifically state that the contractor was to develop a reorganizational plan
for the State Administrative Agency. Other than invoices submitted by the
contractor, there were no records to document the history of the
procurement as required by Code of Federal Regulations Title 44

The U.S. Virgin Islands Management of State Homeland Security Program
         Grants Awarded During Fiscal Years 2007 through 2009

                              Page 10
§13.36(9). However, the contractor was paid $472,167, the full amount of
the contract award.

The State Administrative Agency did not have policies and procedures for
maintaining contract documentation, including information such as
redirecting the focus of the scope of work. The State Administrative
Agency also did not maintain a contract file that contained the history of
the procurement or evidence of the State Administrative Agency
oversight. For example, the basis and justification for redirecting the
scope of work to focus on developing a reorganization plan was not
documented.

Without FEMA approval as required by the DHS Financial Management
Guide, the State Administrative Agency should not have awarded the
contract without competition, without an adequate justification for sole
source procurement, and without a cost analysis being performed. As a
result, the State Administrative Agency did not have assurance that the
cost paid was justified or whether the contract could have been awarded to
an equally competent contractor at a lesser cost. Accordingly, we consider
the $472,167 awarded to the contractor to be a questioned cost.

Recommendations
        We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director of the Virgin Islands Territorial
        Emergency Management Agency to:

        Recommendation #3: Establish policies and procedures to
        adequately justify sole source procurements, ensure that cost
        analyses are performed in accordance with federal regulations, and
        obtain FEMA approval, as necessary, for sole source
        procurements.

        Recommendation #4: Establish policies and procedures to ensure
        that documentation regarding contract activities is maintained.

        Recommendation #5: Disallow the amount paid under the
        contract and recover the $472,167 in State Homeland Security
        Program grant funds for return to FEMA.

Management Comments and Auditors’ Analysis
        FEMA concurred with recommendations 3, 4, and 5. FEMA will
        require the Virgin Islands Territorial Emergency Management
        Agency Director to develop sole source procurement Standard

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 11
        Operating Procedures that includes policies and procedures that
        adhere to federal regulations and Territorial government policies
        and procedures. FEMA will require an update from the Virgin
        Islands Territorial Emergency Management Agency on the
        progress of implementing this corrective action within 90 days of
        the date of the grantee notification letter. FEMA will disallow the
        amount paid to the contract in question and consider options to
        recover the funds and provide initial determinations on possible
        collection options to the Virgin Islands Territorial Emergency
        Management Agency within 90 days of the date of the grantee
        notification letter. FEMA requested that recommendations 3
        through 5 be resolved and open pending implementation of the
        stated corrective actions.

        The Virgin Islands officials did not agree with recommendations 3
        through 5. The officials said that the procurement discussed in the
        report was an open market procurement but the bidder selected was
        disapproved by the Virgin Islands Governor which is allowable
        under law. While this may be allowable under Virgin Islands law
        it does not comply with federal requirements. The officials
        acknowledged that this type of procurement requires approval from
        FEMA, and that such approval was not obtained. The officials did
        not address recommendation 3 that policies and procedures be
        established to adequately justify sole source procurements, ensure
        that cost analyses are performed in accordance with federal
        regulations, and obtain FEMA approval, as necessary, for sole
        source procurements.

        For recommendation 4, the officials said that the Virgin Islands
        Department of Property and Procurement retains information
        relative to every procurement and copies of the award and
        documentation are forwarded to the user agency. They also said
        that they will utilize the Homeland Security Information Network
        to maintain documentation effective in 2012. This response did
        not address recommendation 4 to establish policies and procedures
        to ensure that documentation regarding contract activities is
        maintained. For recommendation 5 the officials said that all the
        deliverables in the contract were not met due to the unforeseen
        event of Hurricane Omar. They further said that the Virgin Islands
        procurement process was followed, monies were disbursed, and
        that the work performed was in line with the contract terms and
        conditions.

        If properly implemented, the corrective actions proposed by
        FEMA will resolve the condition reported in this finding.

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 12
             However, until firm timetables are provided for implementing
             recommendations 3 and 4, the recommendations will remain
             unresolved and open. Recommendation 5 is considered resolved,
             and will remain open until such time that corrective actions have
             been implemented.

Financial Management Documentation
     The State Administrative Agency did not maintain adequate internal
     controls over the management of the FY 2007 through 2009 awards
     because records and supporting documentation were not maintained as
     required by federal regulations. According to the State Administrative
     Agency director, the documents were not maintained because the records
     were either lost or destroyed as a result of, or subsequent to, the
     September 2009 reorganization of the Virgin Islands Territorial
     Emergency Management Agency. As a result, there was no assurance that
     all grant funds were expended for awarded purposes, and the Territory was
     not in compliance with record keeping requirements.

     Code of Federal Regulations Title 44 §13.42, Retention and access
     requirements for records, requires that grantees maintain all financial and
     programmatic records, supporting documents, statistical records, and other
     records which are required to be maintained by program regulations or the
     grant agreement, or otherwise reasonably considered as pertinent to
     program regulations or the grant agreement. Records must be retained for
     3 years from the day the grantee or subgrantee submits to the awarding
     agency its single or last expenditure report for that period.

     Required documentation in support of the procurement of equipment with
     FY 2007, 2008, and 2009 grant funds was not complete. The State
     Administrative Agency had basic information, such as purchase orders for
     equipment, to support drawdowns of grant funds from the federal account.
     However, other records which documented the purchase justification,
     delivery, and installation of equipment were not available.

     Documentation also was not available to support the accomplishments for
     U.S. Virgin Islands personnel costs expended from grant funds for
     planning activities. There were no records to support $275,979 claimed
     for planning activities. Similarly, for personnel costs charged for training
     activities there was no documentation to support the training that was
     performed.

     This deficiency was corroborated by a FEMA monitoring visit in
     September 2010 that found Homeland Security Grant Program files were
     either missing or incomplete. In a letter to the State Administrative

     The U.S. Virgin Islands Management of State Homeland Security Program 

              Grants Awarded During Fiscal Years 2007 through 2009 


                                    Page 13
Agency Director, FEMA stated “a corrective action plan was needed to
comply with federal requirements. Failure to comply may result in federal
funds being placed on hold or having the organization designated as a high
risk which may affect funding from other federal agencies.”

In a November 2010 memorandum for the record, the State Administrative
Agency acknowledged that records were missing. Specifically, the
Agency acknowledged that the missing records included:

    1.	 All grant extension requests prior to October 2, 2009,
    2.	 All personnel listings attached to applications prior to 

        October 2, 2009,

    3.	 National Environmental Policy Act compliance checklists for
        exercises and trainings conducted prior to October 2, 2009,
    4.	 Inventory lists of equipment purchased,
    5.	 Custody receipts for equipment distributed to other U.S. Virgin
        Islands agencies,
    6.	 Any requests for budget modifications made to FEMA prior to
        October 2, 2009,
    7.	 After action reports for exercises that were conducted,
    8.	 Time verification sheets for grant funded employees,
    9.	 Semi-annual certification forms from employees prior to 

        October 2, 2009, and

    10. Quarterly reports (Financial and Programmatic) prior to
        October 2, 2009. (Note: We obtained all but one of the quarterly
        financial reports as of December 2010 for the FY 2007 through
        2009 Homeland Security Grant Program awards.)

During the period March 22-26, 2010, FEMA provided a technical
assistance workshop in the U.S. Virgin Islands for Virgin Islands
Territorial Emergency Management Agency employees. One of the main
issues addressed in the workshop was the need to improve records
retention. FEMA’s after action report for the workshop stated that records
retention is a requirement which must be complied with in order to avoid
future problems with accessing grant files, documents, etc. This
requirement, and the processes to address it, were discussed in detail with
the State Administrative Agency staff during the workshop. It was
recommended in the after action report that FEMA also address this
problem, as it is one with potential legal implications having long-term
impact on the Territory and its grant administration. The State
Administrative Agency officials at the time of our audit were unable to
locate and obtain the majority of the grant files and award information for
the FY 2007 through 2009 grants to the Virgin Islands.




The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 14
The State Administrative Agency Director said that the reorganization of
the State Administrative Agency in September 2009 resulted in documents
being lost during the transfer from one office location to a different
location. The Director stated that not all documents were transferred.

The Virgin Islands Territorial Emergency Management Agency received
Homeland Security Grant Program grants totaling $3,429,214 during
FYs 2007, 2008, and 2009. As a result of the missing documentation,
there was no assurance that these grant funds were used as intended or in
accordance with federal requirements. For example:

    •	 Without inventory lists of equipment purchased and custody
       receipts of equipment disbursed to other U.S. Virgin Islands’
       agencies, the State Administrative Agency did not have
       information to identify, safeguard, maintain, or control the custody
       of equipment purchased with grant funds.

    •	 Without after action reports for exercises that were conducted, the
       State Administrative Agency did not know how many or what type
       of exercises were conducted and what was learned from the
       exercises that could enhance preparedness or response time.

    •	 Without proper documentation for claimed personnel costs, the
       State Administrative Agency could not support that the costs
       claimed were for approved activities or that the activities claimed
       were actually performed.

Taken as a whole, without proper documentation, the State Administrative
Agency could not support that the funds received were appropriately used
or the level of improved preparedness and security that had been achieved.
As a result, the entire $3,429,214 drawn down during FYs 2007, 2008,
and 2009 to the U.S. Virgin Islands is considered “at risk” and should be
considered questioned until the amount of funds that can be adequately
supported is identified. Details of the questioned costs are provided in
appendix D.

Recommendations
        We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director of the Virgin Islands Territorial
        Emergency Management Agency to:

        Recommendation #6: Develop a system to maintain required
        records to assure compliance with grant requirements.


The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 15
        Recommendation #7: Reconstruct the records supporting the
        $3,429,214 drawn down for the FY 2007, 2008, and 2009 grant
        awards.

        Recommendation #8: Refund to FEMA any funds for
        expenditures that cannot be supported by appropriate
        documentation.

Management Comments and Auditors’ Analysis
        FEMA concurred with recommendations 6, 7, and 8. For
        recommendation 6, FEMA will require the Virgin Islands
        Territorial Emergency Management Agency Director to develop
        records management Standard Operating Procedures that include
        procedures for maintaining grant records and associated
        documents. FEMA will require an update from the Virgin Islands
        Territorial Emergency Management Agency on the progress of
        implementing this requirement within 90 days of the date of the
        grantee notification letter.

        For recommendations 7 and 8 FEMA will require the Virgin
        Islands Territorial Emergency Management Agency Director to
        develop and implement a Corrective Action Plan to reconstruct
        grant files and all associated records for FYs 2007, 2008, and 2009
        in support of the $3,429,214 drawdown. Within 90 days of the
        receipt of the files FEMA will review the grant files received for
        unallowable costs and consider options to recover the full or partial
        amount of unallowable costs or costs not supported with
        appropriate documentation. Within 90 days of receiving the grant
        files FEMA will provide initial determinations on possible
        collection options to the Virgin Islands Territorial Emergency
        Management Agency.

        FEMA requested that recommendations 6 through 8 be resolved
        and remain open pending implementation of the corrective actions.

        The Virgin Islands officials did not agree with recommendations 6
        through 8. They said that a system to maintain records has already
        been implemented. The system is the Virgin Islands government
        financial management system. According to the Virgin Islands
        officials, this system has been the official custodian of revenue and
        financial transaction records since 2007. The officials further said
        that they will use the Homeland Security Information Network as
        an additional repository for documentation and records related to
        grant awards from DHS effective January 2012.

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 16
             For recommendation 7, the officials said that they have
             reconstructed records maintained at other locations and the Virgin
             Islands automated system for grant awards for FYs 2007, 2008,
             and 2009 grant awards. The officials shipped the reconstructed
             records to Foxx & Company subsequent to the completion of the
             audit. However, many of these records did not relate to the FYs
             2007, 2008, and 2009 grant awards and were not identified in a
             manner to conclude that they fully supported the awards.

             The Virgin Islands officials also did not agree with
             recommendation 8. The officials said that all funds can be
             accounted for by photos of equipment purchased, inventory
             documentation, or other means to prove that the intended purpose
             of the grants were adhered to even though there were inadequate
             records management controls. They also said that corrective action
             has been taken under the new organization to ensure compliance.
             However, the Virgin Islands officials did not provide
             documentation to support that all funds were accounted for or that
             corrective action had been taken to ensure compliance.

             If appropriately supported and properly implemented, the
             corrective actions proposed by FEMA will resolve the condition
             identified during the audit. However, until firm timetables for
             fully implementing the recommendations are provided, the
             recommendations will remain unresolved and open.

Property Management Controls and Accountability
     The Virgin Islands Territorial Emergency Management Agency did not
     comply with federal requirements for maintaining property records or
     performing required physical inventories. The Virgin Islands Territorial
     Emergency Management Agency property records did not include all
     information required under federal regulations. Also, the process used to
     inventory property relied on the actions of individual government agencies
     without any independent verification from the Virgin Islands Territorial
     Emergency Management Agency. As a result, there was no assurance that
     property was effectively managed by the grantee.

     Code of Federal Regulations Title 44 §13.32(d) Management
     requirements sets forth procedures for managing equipment (including
     replacement equipment), whether acquired in whole or in part with grant
     funds, until disposition takes place. Grant recipients will, at a minimum,
     meet the following requirements:



     The U.S. Virgin Islands Management of State Homeland Security Program 

              Grants Awarded During Fiscal Years 2007 through 2009 


                                    Page 17
    •	 Property records must be maintained that include a description of
       the property, a serial number or other identification number, the
       source of property, who holds title, the acquisition date, cost of the
       property, percentage of federal participation in the cost of the
       property, the location, use and condition of the property, and any
       ultimate disposition data including the date of disposal and sale
       price of the property.

    •	 A physical inventory of the property must be taken and the results
       reconciled with the property records at least once every two years.

    •	 A control system must be developed to ensure adequate safeguards
       to prevent loss, damage, or theft of the property. Any loss,
       damage, or theft shall be investigated.

Code of Federal Regulations Title 44 §13.3, Definitions, defines
equipment as tangible, non-expendable, personal property having a useful
life of more than 1 year and an acquisition cost of $5,000 or more per unit.

The Virgin Islands Territorial Emergency Management Agency property
records did not include the source of the property, acquisition date, cost of
the property, percentage of federal participation in the cost of the property,
or use and condition of the property. The records included a description of
the property, location, property tag number, serial number, and comment
box. We also noted that the records did not include equipment that had
been disposed of or the ultimate disposition data such as the date of
disposal and sale price of the property. Although the equipment selected
for review during the audit included property tags by color code that
identified the type of funds used to procure the equipment, i.e., territorial
or federal, the tags did not identify which federal agency provided the
funds to procure the equipment.

In addition, Virgin Islands Territorial Emergency Management Agency
did not include software costing $5,000 or more as accountable property in
its property records. We identified five purchases of software costing
more than $5,000 not included in the property records. Because software
was not included in the inventory records nor were all procurement
records available, we could not determine the full extent that software was
included in property records.

Virgin Islands Territorial Emergency Management Agency did not
perform the required physical inventories, which provide visual assurances
concerning the location, use, and condition of property. According to
Virgin Islands Territorial Emergency Management Agency officials, all
procurements are made by the Virgin Islands Department of Property and

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 18
Procurement, which had responsibility for conducting physical inventories
for the Territory. Physical inventories of equipment by the Department of
Property and Procurement had to be approved by individual agencies. If
an agency did not approve inventories to be conducted, the inventories
were not done. The Department of Property and Procurement
Commissioner told us that at least one agency had not agreed to have a
physical inventory of equipment. However, the Commissioner did not
know the total number of agencies that had not agreed to have physical
inventories.

The Department of Property and Procurement procedures for managing
fixed assets defined fixed assets as machinery, equipment, and other items
having a value of $5,000 or more, but did not define software as a fixed
asset. The procedures described how to conduct a physical inventory but
did not specify that an inventory be conducted at least once every 2 years
as required under federal regulations.

Without the required physical control and accountability over items
purchased with federal grant funds, the Virgin Islands Territorial
Emergency Management Agency did not have reasonable assurance that
the property procured with State Homeland Security Program funding was
being adequately safeguarded to prevent loss, damage, or theft of the
property. Without satisfactory controls, the grantee did not have an
effective way to ensure that the property was adequately safeguarded or
used solely for authorized purposes.

Recommendations
        We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director of the Virgin Islands Territorial
        Emergency Management Agency to:

        Recommendation #9: Develop and implement procedures to
        ensure that property records comply with inventory requirements
        for equipment purchased with federal funds.

        Recommendation #10: Withhold federal grant fund awards until
        the grantee is in compliance with the property records and
        inventory requirements.

        Recommendation #11: Conduct physical inventory and reconcile
        to property records.




The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 19
Management Comments and Auditors’ Analysis
        FEMA concurred with recommendations 9, 10, and 11. FEMA
        will require the Virgin Islands Territorial Emergency Management
        Agency Director to develop property management and inventory
        Standard Operating Procedures. The procedures should adhere to
        federal regulations and Territorial government policies and
        procedures and must include systematic procedures for property
        management and inventory.

        FEMA will require an update from the Virgin Islands Territorial
        Emergency Management Agency on the progress of implementing
        these requirements within 90 days of the date of the grantee
        notification letter for this required corrective action. FEMA will
        also consider options to withhold funding until the Standard
        Operating Procedures are developed and approved as part of an
        overall Corrective Action Plan. FEMA will advise the Virgin
        Islands Territorial Emergency Management Agency of its
        determination to withhold funds within 45 days of the date of the
        grantee notification letter.

        Within 90 days of the date of the grantee notification letter FEMA
        will require the Virgin Islands Territorial Emergency Management
        Agency Director to develop, implement, and submit to FEMA for
        approval a Corrective Action Plan to conduct a physical inventory
        of all equipment purchased with FYs 2007, 2008, and 2009 funds
        and reconcile all associated property records. Upon completion, an
        inventory report will be required to be provided to FEMA. FEMA
        will require an update report on progress of this corrective action
        from the Virgin Islands Territorial Emergency Management
        Agency within 90 days of the date of the grantee notification letter
        on the corrective action.

        FEMA requested that recommendations 9 through 11 be resolved
        and remain open pending implementation of the corrective actions.

        Virgin Islands officials agreed with recommendation 9. They said
        that the Virgin Islands Department of Property and Procurement is
        responsible for maintaining inventory but that the inventory system
        of this organization is inadequate for meeting federal requirements.
        Therefore the officials said that they are in the process of creating
        an in-house inventory tracking system.

        The officials did not agree with recommendation 10. The officials
        said that they have taken steps to comply with inventory

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 20
             requirements. This involves using automated spreadsheets to
             capture information and solicitation of specialized software from
             various vendors to achieve compliance with the recommendation.
             The due date for completion of this process is May 30, 2012. The
             officials said that withholding federal grant funds would inhibit
             completion of the project.

             For recommendation 11, Virgin Islands officials agreed, and said
             that an inventory has been conducted and property records are
             being reconciled and the inventory will be updated bi-annually.
             Guidance is also being provided to program mangers on
             accounting for acquisitions utilizing federal and local funds.

             If properly implemented, the corrective actions proposed by
             FEMA and the Virgin Islands will resolve the condition identified
             during the audit. Until a firm timetable for implementing
             recommendation 9 is provided, the recommendation will remain
             unresolved and open. Recommendations 10 and 11 are considered
             resolved, and will remain open until such time that corrective
             actions have been implemented.

Use of Purchased Equipment
     The State Administrative Agency purchased communications equipment
     that could not be used. The equipment, purchased at a cost of more than
     $200,000, were radio encryption modules to increase security for law
     enforcement and first responder radios. However, the modules were not
     compatible with all of the Territory’s first responder radios. According to
     Virgin Islands Territorial Emergency Management Agency officials, the
     encryption modules were left with the installation contractor and the
     agency did not know the specific physical location of the modules. As a
     result, grant funds were spent for equipment that could not be used and the
     State Administrative Agency did not maintain control over the purchased
     equipment.

     Code of Federal Regulations Title 44 §13.32(c) requires that equipment be
     used by the grantee or subgrantee in the program or project for which it
     was acquired as long as needed, whether or not the project or program
     continues to be supported by Federal funds. Code of Federal Regulations
     Title 44 §13.20(a)(3) requires that effective control and accountability be
     maintained for all grant and subgrant cash, real and personal property, and
     other assets. Grantees and subgrantees must adequately safeguard all such
     property and must assure that it is used solely for authorized purposes.
     Also, Code of Federal Regulations Title 2 §215.34(f)(4) requires that a


     The U.S. Virgin Islands Management of State Homeland Security Program 

              Grants Awarded During Fiscal Years 2007 through 2009 


                                    Page 21
control system be in effect to ensure adequate safeguards to prevent loss,
damage, or theft of the equipment.

In September 2009 the State Administrative Agency purchased 575 radio
encryption modules at a cost of $201,250 for installation into law
enforcement and first responder radios. The Virgin Islands justified the
purchase of these modules as being critical to: (1) ensure communication
security for sensitive interdepartmental communications, (2) bypass the
ability of criminals and others for monitoring communications,
(3) increase the efficiency of the 9-1-1 system, and (4) improve law
enforcement in the Territory.

Five encryption modules were initially installed and were found not to
work because the first responders had radios from two different
manufacturers. When the modules were installed in one manufacturer’s
radio, the radio signal could not be heard on the other manufacturer’s
radio. The purchase of the incompatible encryption modules was due to
poor procurement planning. The Virgin Islands Territorial Emergency
Management Agency did not have information to support the actions taken
during the procurement of the encryption modules to ensure that the
modules were compatible with all first responder radios.

In February 2011, we observed the encryption modules in the original
shipping boxes from the manufacturer. The module boxes were located in
a storage area of the module installation contractor. The State
Administrative Agency could not provide us a location for the modules.
We visited the contractor to observe the modules and provided the
location to agency officials. The State Administrative Agency director
said that the modules will eventually be used when additional radios are
purchased from one of the two radio manufacturers to ensure that all
radios would be from the same manufacturer. The State Administrative
Agency director said it is uncertain when the purchase of the additional
radios will occur.

Because the modules did not work, the law enforcement and first
responder radios were not secured and protected as planned. In addition,
because the State Administrative Agency did not know where the modules
were being stored, the State Administrative Agency had no assurance that
the modules were in a secure location or were still available. As a result
of the modules not being able to be used, we consider the $201,250 to be a
questioned cost.




The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 22
Recommendations
        We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director of the Virgin Islands Territorial
        Emergency Management Agency to:

        Recommendation #12: Expedite the procurement of radios that
        are compatible with the modules, and install the modules as
        intended.

        Recommendation #13: If compatible radios are not procured,
        return the $201,250 to FEMA.

Management Comments and Auditors’ Analysis
        FEMA concurred with recommendations 12 and 13. FEMA will
        require the Virgin Islands Territorial Emergency Management
        Agency Director to provide documentation and written
        certification that radios compatible with encryption modules are
        procured and modules are installed as intended. FEMA will
        require an update from the Virgin Islands Territorial Emergency
        Management Agency on the progress of implementing this
        requirement within 90 days of the date of the grantee notification
        letter for this required corrective action.

        FEMA will consider options to recover the associated costs if
        documentation to support the procurement of radios and
        installation of encryption modules is not provided by the Virgin
        Islands Territorial Emergency Management Agency Director.
        FEMA will advise the Virgin Islands Territorial Emergency
        Management Agency of this determination within 45 days of the
        receipt of the documentation, or, if documentation is not received
        or insufficient, within 90 days of the date of the grantee
        notification letter. FEMA requested that recommendations 12 and
        13 be resolved and remain open pending implementation of the
        corrective actions.

        Virgin Islands officials did not agree with recommendations 12
        and 13. The officials said that prior to the audit they had identified
        the physical location of the encryption cards and the inventory
        location has been included in an automated spreadsheet.
        (However, during the audit when the audit team asked for the
        location of the encryption cards, Virgin Islands officials did not
        know the location.) The officials further stated that the vendor for
        the encryption cards has been contacted and the cards will be

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 23
             installed in those radios that can be encrypted which will meet the
             specified justification of purchase. The officials did not say how
             many of the radios on-hand might not be capable of being
             encrypted. The officials also did not address the need to
             expeditiously procure radios to replace the radios that cannot be
             encrypted. For future purchases the officials said they are
             committed to ensuring that all purchases will be interoperable.
             The officials also said that training will be provided to ensure
             future maintenance.

             For recommendation 13, the officials said that efforts are underway
             to install the encryption cards into those radios that can be
             encrypted. The officials did not address the recommendation that
             the cost of encryption cards that are not compatible be refunded to
             FEMA.

             If properly implemented, the corrective actions proposed by
             FEMA will resolve the condition identified during the audit.
             However, until a firm timetable for fully implementing
             recommendation 12 is provided, the recommendation will remain
             unresolved and open. Recommendation 13 is considered resolved,
             and will remain open until such time that corrective actions have
             been implemented.

Procurement of Training
     The State Administrative Agency utilized a Memorandum of
     Understanding to procure training for first responders and other Virgin
     Islands officials from the University of Virgin Islands Community
     Engagement and Lifelong Learning Center. However, the agreement
     included a 25% service fee ($50,000) that was subsequently claimed as
     undocumented indirect costs. As a result, we consider the $50,000 to be a
     questioned cost because of a lack of supporting documentation.

     The University of Virgin Islands Community Engagement and Lifelong
     Learning Center is an organization within the University of Virgin Islands
     that provides training for professionals and organizations. According to
     Territorial personnel, the Memorandum of Understanding was made by
     the State Administrative Agency to avoid the Virgin Islands administrative
     processes of entering into contracts.

     Code of Federal Regulations Title 2 Appendix A to Part 220, §K.2.a.(1)
     states that no proposal to establish facilities and administrative (indirect)
     costs shall be acceptable unless such costs have been certified by the
     educational institution. Section K.2.b. (4) requires that the institution’s

     The U.S. Virgin Islands Management of State Homeland Security Program 

              Grants Awarded During Fiscal Years 2007 through 2009 


                                    Page 24
certification state that all costs included are properly allocable to federal
agreements on the basis of a beneficial or causal relationship between the
expenses incurred and the agreements to which they are allocated in
accordance with applicable requirements.

The State Administrative Agency entered into a Memorandum of
Understanding on December 31, 2008, with the University of Virgin
Islands for $200,000. Under the agreement, the University of Virgin
Islands was to manage, coordinate, and implement training programs. The
agreement stated that the State Administrative Agency outsourced the
management and delivery of training in compliance with the 2007
Homeland Security Guidance.

The Memorandum of Understanding included a service fee of 25%
($50,000), which was subsequently identified as indirect costs. The State
Administrative Agency could not provide documentation to support that
an indirect cost allocation plan in support of the $50,000 service fee had
been prepared and approved. As a result, the makeup of the $50,000
professional service fee could not be determined.

During a FEMA technical assistance workshop provided to State
Administrative Agency officials in March 2010, the Memorandum of
Understanding with the University of Virgin Islands was reviewed. The
after-action report following the workshop stated that it was agreed that
the State Administrative Agency needed to either (1) terminate the
Memorandum of Understanding and re-establish the relationship with the
University of Virgin Islands as a subrecipient, or (2) subaward the funding
to the Virgin Islands Territorial Emergency Management Agency Training
Division and let it administer the project with the University of Virgin
Islands as a contractor. The report concluded that the current
Memorandum of Understanding did not establish the correct relationship
nor did it include a termination clause. According to a Virgin Islands
official, because the use of the Memorandum of Understanding was
questioned by FEMA, a contract or subgrantee agreement will be used
instead of a Memorandum of Understanding for future agreements with
the University of Virgin Islands to provide training.

In addition to the December 2008 Memorandum of Understanding for
$200,000, the State Administrative Agency entered into two prior
Memoranda of Understandings with the University of Virgin Islands to
provide training, one for $150,000 with a service fee of $37,500, and
another for $200,000 with a service fee of $50,000. Because these
agreements were outside the scope of our audit, we did not review these
service fees.


The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 25
The State Administrative Agency Director said that a Memorandum of
Understanding was used with University of Virgin Islands to avoid Virgin
Islands contract requirements. There were no Virgin Islands procurement
policies or procedures that restricted the State Administrative Agency
from using a Memorandum of Understanding to procure training services
from the University of Virgin Islands. The University of Virgin Islands
official that managed the memorandum of understanding stated that
memorandums of understanding were also used with other Virgin Islands
government agencies.

The procurement of training using a Memorandum of Understanding with
the University of Virgin Islands did not include an approved indirect cost
allocation plan in support of the $50,000 service fee. In addition, FEMA
determined that the Memorandum of Understanding with the University of
the Virgin Islands was not a proper procurement method. As a result, we
question the $50,000 paid to the University of Virgin Islands.

Recommendations
        We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director of the Virgin Islands Territorial
        Emergency Management Agency to:

        Recommendation #14: Recover the $50,000 paid to the
        University of the Virgin Islands as a professional service fee and
        return it to FEMA.

        Recommendation #15: Require that future agreements with the
        University of Virgin Islands be made through contractual
        agreements or through subgrantee agreements.

Management Comments and Auditors’ Analysis
        FEMA concurred with recommendations 14 and 15. FEMA will
        require the Virgin Islands Territorial Emergency Management
        Agency Director to submit justification that supports the service
        fee paid the University of Virgin Islands. FEMA will require an
        update report on progress from the Director within 90 days of the
        date of the grantee notification letter on this required corrective
        action. FEMA will review the justification submitted and, if
        necessary, take action to recover all or part of the fee paid to the
        University of Virgin Islands. If FEMA decides to take this action,
        FEMA will advise the Virgin Islands Territorial Emergency
        Management Agency of the determination within 60 days of the
        receipt of the documentation.

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 26
             FEMA also will require the Virgin Islands Territorial Emergency
             Management Agency Director to submit written certification that
             all future fiduciary agreements for FEMA preparedness grants with
             the University of Virgin Islands are made through contractual or
             subgrantee agreements. FEMA will also require the Director to
             develop grants management Standard Operating Procedures that
             will include procedures for subgranting funds. FEMA will require
             an update from the Virgin Islands Territorial Emergency
             Management Agency on the progress to implement the corrective
             actions within 90 days of the date of the grantee notification letter.
             FEMA requested that these recommendations be resolved and
             remain open pending implementation of the corrective actions.

             Virgin Islands officials did not agree with recommendations 14
             and 15. The officials said that the University of Virgin Islands has
             an approved indirect cost rate of 65% for on-campus activities and
             a rate of 25% for off-campus activities that applies to the training
             agreement. The officials said that the $50,000 cited in the
             recommendation as a professional service fee constitutes the
             equivalent of the indirect cost. While the Virgin Islands officials
             said that the $50,000 was for indirect costs, identification of the
             $50,000 as an indirect cost was not established at the time of the
             agreement. We also note that a $50,000 fee included in a $200,000
             total cost equates to a rate of 33%, not 25%.

             For recommendation 15 the officials said that they now have
             adequate training facilities and it is not anticipated that the services
             procured will be required in the future other than rental of a larger
             facility for specialized training. If it becomes necessary to use the
             services of the University of Virgin Islands again the officials will
             use the Virgin Islands Attorney General’s Office to craft an
             acceptable agreement.

             If properly implemented, the corrective actions proposed by
             FEMA will resolve the condition identified during the audit.
             However, until firm timetables for fully implementing the
             recommendations are provided, the recommendations will remain
             unresolved and open.

Personnel Time Charges
     The U.S. Virgin Islands did not adequately document personnel charges to
     the FYs 2007 and 2008 awards. Personnel time charges for State
     Homeland Security Program funds were not supported by activity reports
     or time sheets indicating that personnel had worked on grant projects or

     The U.S. Virgin Islands Management of State Homeland Security Program 

              Grants Awarded During Fiscal Years 2007 through 2009 


                                    Page 27
activities as required by regulations. As a result, there was no assurance
that the time charged was spent on allowable grant activities. In addition,
the Territory charged personnel costs to the FY 2007 award in excess of
the allowable award percentage. The U.S. Virgin Islands personnel were
unaware of the 15% ceiling on personnel costs. Because the State
Administrative Agency did not comply with the 15% award requirement
and did not adequately document personnel time charges, we consider
personnel costs charged of $568,069 to be a questioned cost.

According to Code of Federal Regulations Title 2 §225, Cost Principles
for State, Local, and Indian Tribal Governments, when employees work
on multiple activities or cost objectives, a distribution of their salaries or
wages will be supported by personnel activity reports or time sheets.
Personnel activity reports must reflect an after-the-fact distribution of the
actual activity, must account for the total activity for each employee, must
be prepared at least monthly, and must be signed by the employee.
According to the FY 2007 Homeland Security Grant Program Guidance
and application kit, up to 15% of the program funds may be used to
support the hiring of full or part-time personnel to conduct program
activities that are allowable under the FY 2007 Homeland Security Grant
Program guidance. Allowable activities include planning, training,
program management, and exercise program management.

        Unsupported Personnel Time Charges

        According to current Virgin Islands employees, personnel
        expenses charged to State Homeland Security Program grants for
        FYs 2007 and 2008 were based on a percentage determined by the
        former State Administrative Agency director. The current State
        Administrative Agency director could not provide documentation
        to support how the percentages were determined.

        Employee time sheets were not supported by personnel activity
        reports or records that detailed specific hours worked on grant
        activities. The time sheets simply showed calculated hours worked
        by an employee on each day. For five employees, a total salary
        amount of $210,600 was charged to the FY 2007 State Homeland
        Security Program funds. For FY 2008, the amount calculated for
        these five employees totaled $357,469. These salary amounts
        totaling $568,069 for FYs 2007 and 2008 were documented in the
        State Administrative Agency’s justifications for drawdown
        amounts for FYs 2007 and 2008. No salary amounts were charged
        in FY 2009. Virgin Islands officials stated that supporting activity
        reports for time charges are now required. However,
        documentation was not provided to support this statement.

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 28
        According to Virgin Islands officials, the Territory personnel
        approving the time sheets were not aware that supporting
        documentation was required. The State Administrative Agency
        did not have documented policies and procedures that specified the
        requirement for supporting documentation. The Territory
        personnel stated that they were first made aware of the requirement
        for supporting documents when it was identified in a single audit
        report. Without documentation indicating which grant activities
        employees worked on, there is no assurance that the time spent by
        employees was actually spent to further the purposes of the
        awarded grant. Accordingly, the $568,069 charged for FYs 2007
        and 2008 are considered questionable costs.

        The single audit report for FY 2007 also found that personnel time
        charges for State Homeland Security Program funds were not
        supported. The report stated that the Office of Management and
        Budget Circular A-87, Attachment B, item #8(h)(3), requires
        support for salaries and wages, where employees are expected to
        work solely on a single federal award or cost objective. Charges
        for salaries and wages should be supported by periodic
        certifications that the employees worked solely on that program for
        the period covered by the certification. The report concluded that
        the Virgin Islands Office of the Adjutant General was unable to
        provide the semi-annual certifications for sampled employees paid
        with federal grant funds. This occurred because policies were not
        in place to require certifications or time cards. As a result, the
        report questioned $63,042 of payroll costs for sampled time
        charges. These time charges were for the five employees that had
        total salary amounts of $210,600 for FY 2007. The $63,042
        identified from the single audit is included in the $568,069
        questioned from our audit.

        Personnel Costs Exceeded the Authorized Amount

        The State Homeland Security Program grant amount was
        $1,270,000 for FY 2007 and $1,850,000 for FY 2008, resulting in
        personnel cost ceilings (15% of the awards) of $190,500 and
        $277,500 for FYs 2007 and 2008, respectively. However, the
        Virgin Islands claimed personnel costs of $210,600 for FY 2007
        and $357,469 for FY 2008. Therefore, the allowable amount was
        exceeded by $20,100 for FY 2007 and by $79,969 for FY 2008.
        At the time of our audit, the FY 2009 personnel charges to the
        grants were within the respective ceilings. Virgin Islands
        Territorial Emergency Management Agency officials said that they


The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 29
        thought the allowable amount was 50% rather than 15% for the
        FY 2007 and FY 2008 grants.

        The failure of the State Administrative Agency employees to
        support time charges to the FYs 2007 and 2008 awards with
        adequate documentation and exceeding the 15% ceiling imposed
        by FEMA requirements has resulted in $568,069 of time charges
        questioned.

Recommendations
        We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director of the Virgin Islands Territorial
        Emergency Management Agency to:

        Recommendation #16: Provide documentation that supports the
        questioned salary costs of $568,069, including the amounts that
        exceeded the 15% limit, or recover the amount not supported.

        Recommendation #17: Establish controls to ensure compliance
        with federal requirements concerning the limitations of grant funds
        used for personnel costs.

        Recommendation #18: Ensure that employees prepare activity
        reports that identify the specific grant to which the hours claimed
        are being charged.

Management Comments and Auditors’ Analysis
        FEMA concurred with recommendations 16, 17, and 18. FEMA
        will require the Virgin Islands Territorial Emergency Management
        Agency Director to develop time and attendance standard
        operating procedures and establish policies requiring certification
        of timecards for all personnel paid with FEMA preparedness grant
        funds. FEMA will also require the Director to submit
        documentation that supports the questioned salary costs including
        the $21,100 that exceeded the 15% limit. FEMA will require an
        update from the Virgin Islands Territorial Emergency Management
        Agency on the progress of implementing this requirement within
        90 days of the date of the grantee notification letter. FEMA will
        analyze the documentation to determine if the costs did exceed the
        15% limit and take appropriate steps to recover the questioned
        funds. FEMA will apprise the Agency of its determination to
        recover funds within 90 days of the receipt of the subject
        documentation. FEMA requested that recommendations 16

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 30
        through 18 be resolved and remain open pending implementation
        of the corrective actions.

        Virgin Islands officials did not agree with recommendations 16
        through 18. For recommendation 16, the officials said that they
        are working on compiling the information regarding the questioned
        salary costs but they have not completed the effort and it will take
        six months to complete. The officials’ efforts to compile this
        information will not ensure that the actual time spent will be
        determined, because of the time span since salary costs were
        claimed as well as turnover of staff for which amounts were
        claimed. It is not likely the amounts arrived at from the after the
        fact effort will adequately represent time expended on the FEMA
        awards. In addition, the officials did not address the return of the
        $20,100 that exceeded the 15% grant limit.

        For recommendation 17, the Virgin Islands officials said that the
        Government of Virgin Islands has established standard operating
        procedures and best practices relative to all grant personnel costs.
        The automated system has controls disallowing transactions that
        would exceed the grant performance period and they are
        conducting monthly reconciliations of personnel costs to ensure
        timely adjustments for payroll allocation. These actions, however,
        do not address the need for controls to ensure compliance in the
        future with federal percentage limitations on the use of grant funds.
        Accordingly the need for controls will remain unresolved.

        For recommendation 18, the Virgin Islands officials said that they
        have initiated steps to create internal coding on time sheets
        delineating grant tasks with personnel cost allocation. Also, Virgin
        Islands officials said a grants management manual has been
        established that documents internal controls to ensure that
        employees provide monthly reports detailing activities for each
        grant period.

        Although the corrective actions proposed by FEMA, if properly
        implemented, may resolve the recommendations, the Virgin
        Islands’ disagreement with the recommendations could hamper the
        successful resolution of the recommendations. Until firm
        timetables for implementing these recommendations are provided,
        the recommendations will remain unresolved and open.




The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 31
Filing Financial Reports
     The State Administrative Agency did not submit required federal quarterly
     financial status reports in a timely manner. Of the 29 financial reports that
     were required to be submitted for the FYs 2007 through 2009 Homeland
     Security Grant Program between the date-of-award and December 31,
     2010, 22 were submitted late and 1 was not submitted. As a result,
     because the Territory was not in compliance with federal regulations,
     FEMA officials did not have timely information on the State’s financial
     activities in managing the grant funds.

     According to Code of Federal Regulations Title 44 §13.41, Financial
     reporting, grantees are required to submit financial status reports within
     30 days after the end of each quarter. These reports are critical tools for
     FEMA to carry out its financial stewardship duties for the Homeland
     Security Grant Program. The reports serve as a check to determine if
     grantees are expending federal funds on a timely basis.

     Table 2 shows the Virgin Islands’ history of compliance with the federal
     financial reporting requirements for the FYs 2007 through 2009 Homeland
     Security Grant Program from award date through December 31, 2010.

     Table 2: Financial Status Reports
                                               Quarterly Financial Reports
                  Date                                              Average
        FY                                  Submitted Submitted                    Not
                 Awarded      Required                                Days
                                             on Time       Late                 Submitted
                                                                     Late*
       2007      08/13/07         14            2           11          49           1
       2008      08/25/08         9             3            6          24           0
       2009      08/21/09         6             1            5          22           0
       Total                      29            6           22          36           1
      * Code of Federal Regulations Title 44 §13.41 requires financial status reports to be
      filed within 30 days from the end of each quarter. The above Average Days Late begins
      on the 31st day.

     As the table shows, 22 of the 29 required status reports were filed after the
     required 30-day period following the end of each quarter. Of the 22 late
     reports, 13 were filed more than 10 days late. Although FEMA sponsored
     a training session on grant management for Virgin Islands Territorial
     Emergency Management Agency personnel in response to this condition,
     Virgin Islands Territorial Emergency Management Agency continued to
     file late reports. The State Administrative Agency Director said that he
     did not know why the financial reports were filed late or not filed at all.



     The U.S. Virgin Islands Management of State Homeland Security Program 

              Grants Awarded During Fiscal Years 2007 through 2009 


                                      Page 32
Financial reports are critical components of grant management process,
providing visibility of the volume and timeliness of grantee use of funds.
Without these reports being filed in a timely manner, FEMA was not
provided information concerning the financial activities as required by the
grant agreement. Noncompliance with filing financial reports is another
example of the overall problems with grants management by the State
Administrative Agency as identified in several FEMA programmatic and
financial reviews and as reported in single audit reports.

Recommendation
        We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Director of the Virgin Islands Territorial
        Emergency Management Agency to:

        Recommendation #19: Establish and comply with procedures to
        ensure that financial status reports are prepared and submitted in a
        timely manner in accordance with federal requirements.

Management Comments and Auditors’ Analysis
        FEMA concurred with recommendation 19 and will require the
        Virgin Islands Territorial Emergency Management Agency
        Director to establish grants management Standard Operating
        Procedures. The Standard Operating Procedures must address the
        preparation and timely submission of financial status and any other
        reports required by FEMA. FEMA will require an update from the
        Virgin Islands Territorial Emergency Management Agency on the
        progress to implement the corrective action within 90 days of the
        date of the grantee notification letter. FEMA requested that
        recommendation 19 be resolved and remain open pending
        implementation of the corrective actions.

        Virgin Islands officials agreed with recommendation 19. The
        officials said that policies and procedures have been instituted and
        outlined in the grants management manual. Our review of this
        manual indicated that these policies and procedures consisted of
        federal financial reporting instructions and instructions for
        completing Homeland Security Quarterly progress reports. The
        officials said that there has been a marked improvement in
        reporting but changes and modifications in the DHS/FEMA
        electronic reporting system have been problematic resulting in
        instances of late reporting.



The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 33
             If properly implemented, the corrective actions proposed by
             FEMA and the Virgin Islands will resolve the condition identified
             during the audit. However, until a firm timetable is provided for
             fully implementing the recommendation, the recommendation will
             remain unresolved and open.

High Risk Grantee
     The State Administrative Agency should be considered a high risk grantee
     because it has a history of noncompliance with the terms and conditions of
     grant awards and federal regulations. The State Administrative Agency’s
     lack of compliance has been independently documented by various
     oversight organizations in single audit reports and FEMA monitoring
     reports. In addition, the results of this audit have further documented the
     State Administrative Agency’s noncompliance with the requirements of
     the FYs 2007 through 2009 State Homeland Security Program grants.
     State Administrative Agency officials were unaware of federal
     requirements, did not maintain grant expenditure and procurement records,
     did not maintain an up to date strategy, and generally did not comply with
     the federal grant requirements. As a result, unless additional oversight or
     grant restrictions are placed on the State Administrative Agency, the
     noncompliance documented by this audit and other reviews will likely
     continue into the future.

     Code of Federal Regulations Title 44 §13.12(a) sets forth conditions for
     “high-risk” grantees. A grantee or subgrantee may be considered “high
     risk” if an awarding agency determines that a grantee or subgrantee:

         (1) has a history of unsatisfactory performance, or
         (2) is not financially stable, or
         (3) has a management system which does not meet the management
             standards set forth in this part, or
         (4) has not conformed to terms and conditions of previous awards, or
         (5) is otherwise not responsible.

     If the awarding agency determines that an award will be made, special
     conditions or restrictions shall correspond to the high risk condition and
     shall be included in the award.

     We along with other independent organizations have determined that the
     State Administrative Agency was not in compliance with federal
     regulations in several areas. The State Administrative Agency was not in
     compliance in the areas of personnel time charged, financial reports filed,
     property management, preparation of applications, property management,
     supporting documentation maintained, and contracted services.

     The U.S. Virgin Islands Management of State Homeland Security Program
              Grants Awarded During Fiscal Years 2007 through 2009

                                   Page 34
The State Administrative Agency has had a history of not complying with
the terms and conditions of grant awards as reported by FEMA monitoring
visits and single audit reports. The findings of noncompliance identified
in these reports, listed below, clearly indicate that the State Administrative
Agency meets the conditions of a high risk grantee. In the single audit
report for FYs 2007 and 2008 (the latest available at the conclusion of our
field work), the findings shown in table 3 applied to the Homeland
Security Grant Program grants. The State Administrative Agency Director
at that time was the Adjutant General.

Table 3: Single Audit Report Findings
 FY 2007 Report Findings
    •	 The Office of the Adjutant General was unable to provide semi-annual
       certifications for employees paid with Federal Award funds.
    •	 The Office of the Adjutant General does not have adequate procedures to
       ensure expenditures reimbursed are adequately supported.
    •	 The Office of the Adjutant General does not have adequate controls in
       place to ensure that records are properly maintained.
    •	 The Office of the Adjutant General did not follow procedures in place to
       maintain appropriate records for acquisition and control of property
       acquired with Federal funds.
    •	 Processes were not in place to provide for the proper reconciliation of
       accounting records/information.

  FY 2008 Report Findings
    •	 Internal controls to ensure reported program expenditures were incurred
       during the grant award period are not operating effectively.
    •	 Internal controls to ensure property records are readily available for
       inspection were not operating effectively.
    •	 Internal controls to ensure financial reports are submitted to the federal
       grantor and readily available are not operating effectively.
    •	 Internal controls related to record retention to ensure supporting 

       documentation for cash drawdowns are readily accessible are not 

       operating effectively. 



Our audit of the Virgin Islands’ management of the State Homeland
Security Program grants for FYs 2007 through 2009 further supports that
the Territory should be considered a high risk grantee. The eight findings
discussed in this report show that the Territory continues to demonstrate
weak management, inappropriate oversight of federal grant funds, and
lack of compliance with federal requirements concerning grants
management.

In March 2010, in response to the findings contained in the FYs 2007 and
2008 single audit reports, as well as FEMA’s observations during
The U.S. Virgin Islands Management of State Homeland Security Program
         Grants Awarded During Fiscal Years 2007 through 2009

                              Page 35
monitoring visits, FEMA provided a technical assistance workshop for
Virgin Islands Territorial Emergency Management Agency employees.
The workshop provided the State Administrative Agency staff with
needed assistance regarding the compliance requirements for the
administration of all FEMA programs, as well as methods and approaches
to standardize the internal and external grants management
responsibilities.

According to an after action report on the workshop, FEMA officials, in
preparation for the workshop, reviewed monitoring reports and the results
of the single audits. FEMA officials also conducted conference calls with
Virgin Islands employees. Based on this preparatory work, FEMA
officials identified the following areas of deficiencies regarding the Virgin
Islands’ management of FEMA grant funds:

    •	 Overdue federal financial reports and progress reports
    •	 Expenditures in excess of the federal award amount incurred
       beyond the performance period
    •	 Lack of cash management procedures and practices
    •	 Funds being drawn down without proper documentation of 

       obligation or expenditure 

    •	 Slow rate of fund drawdowns for current awards
    •	 Time and attendance maintenance and reporting for grant-funded
       activities
    •	 Missing travel documentation
    •	 Missing subrecipient applications, progress reports, 

       correspondence, and procurement documentation 

    •	 No standard operation procedures for grants management
    •	 Missed deadlines for grant applications during FY 2010
    •	 No access to online electronic grants payment and reporting
       systems (e.g., Grants Management System, Payment and Reporting
       System, Grants Reporting Tool, or Homeland Security Information
       Network)

After the technical assistance workshop, a letter from FEMA was sent to
the Virgin Islands Territorial Emergency Management Agency on July 27,
2010, with recommendations to address the above issues. These
recommendations included Virgin Islands Territorial Emergency
Management Agency developing a grants management policy and
procedures manual.

On March 14, 2011, we requested information from Virgin Islands
Territorial Emergency Management Agency officials on the status of
implementing the FEMA recommendations. The Virgin Islands
Territorial Emergency Management Agency responded to our request by
The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 36
sending a letter dated April 8, 2011, to FEMA regarding the status of
implementing the recommendations. In this letter, the Virgin Islands
Territorial Emergency Management Agency stated that they were still
working on developing a grants management policy and procedures
manual and taking actions to address other recommendations. However,
the Virgin Islands Territorial Emergency Management Agency did not
provide information on specifically what was being done to implement the
recommendations. Eight months had passed since the Virgin Islands
Territorial Emergency Management Agency received the
recommendations letter from FEMA, and the agency was still working on
implementing the recommendations. The Virgin Islands Territorial
Emergency Management Agency did not respond to the recommendations
until we inquired about the status of implementing the recommendations.

According to the current State Administrative Agency Director, the Virgin
Islands Territorial Emergency Management Agency has not had the staff
resources needed to fully comply with the federal regulations. It was
further stated that staff turnover has contributed significantly to the
noncompliance with federal requirements, the lack of response to FEMA
recommendations, and the numerous reported deficiencies in grants
management. The Director also attributed the loss of documentation and
unawareness of the requirements to the reorganization and relocation of
the State Administrative Agency, along with the realignment of staff
responsibilities.

Conclusion
The history of noncompliance, loss of documentation, and overall
unawareness of the importance of complying with federal requirements
has created a high-risk environment for the management of grant funds
within the Virgin Islands. With this type of environment, FEMA cannot
be certain that the grant funds will be appropriately administered
consistent with the goals of the programs. FEMA also cannot be assured
that the funds are adequately protected from fraud, waste, abuse, and
mismanagement. Without FEMA taking the necessary action, such as
declaring the Virgin Islands Territorial Emergency Management Agency a
high-risk grantee, future grant funds likely will continue to be treated in
the same fashion as previous awards and the Territory will not be better
prepared to respond to incidents.

The lack of compliance by the State Administrative Agency in the
administration of grants as discussed in our findings and those of other
independent reviewers indicates that action needs to be taken to force the
State Administrative Agency to comply with grant requirements. We
believe that designating the State Administrative Agency as high risk

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 37
would be an effective way to force compliance by the State Administrative
Agency. As a high-risk grantee, the State Administrative Agency would
be under greater oversight by FEMA to comply with federal requirements.

In regard to declaring the State Administrative Agency a high-risk grantee,
we noted that the U.S. Department of Education had designated the Virgin
Islands Department of Education as a high-risk grantee. In an U.S.
Department of Education, Office of Inspector General (OIG) Audit report
dated January 2010, Audit Report No. ED-OIG/L04J0015, the report
outlines the financial management problems the U.S. Department of
Education has had with the Government of the Virgin Islands and the
Virgin Islands Department of Education. The report details audit issues
from FYs 2003 to 2009 that have not been sufficiently resolved. Although
the Virgin Islands Territorial Emergency Management Agency is a
different agency than the Department of Education, many of the audit
findings at the State Administrative Agency are very similar to the
findings in the U.S. Department of Education OIG report, and show an
inability or unwillingness of the Territory government to comply with
federal requirements. The U.S. Department of Education has required the
Virgin Islands Department of Education to enter into a compliance
agreement and hire a third party fiduciary to manage its grant funds and to
assist in resolving its financial management issues.

Recommendations
        We recommend that the Assistant Administrator, Grant Programs
        Directorate:

        Recommendation #20: Assess the Virgin Islands grant
        performance and based on that assessment determine if the State
        Administrative Agency should be declared a high-risk grantee.

        Recommendation #21: Develop and implement procedures with
        special conditions and restrictions to ensure that future grants to
        the Virgin Islands are managed in accordance with federal
        requirements and that the funds are adequately safeguarded against
        fraud, waste, abuse, and mismanagement.

        Recommendation #22: Consider requiring the State
        Administrative Agency to hire a third party fiduciary to manage its
        grant funds and assist in resolving the financial management
        issues.




The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 38
Management Comments and Auditors’ Analysis
        FEMA concurred with recommendations 20, 21, and 22. In
        response to recommendations 20 and 21, FEMA will conduct an
        assessment to determine if the grantee should be given a high-risk
        designation. The assessment will include progress towards
        implementing a Corrective Action Plan and progress towards
        correcting findings identified in FEMA Financial Monitoring
        Reports and FEMA Programmatic Monitoring Reports. FEMA
        will require an update report from the Virgin Islands Territorial
        Emergency Management Agency on the progress of implementing
        this requirement within 90 days of the date of the grantee
        notification letter for this required corrective action. FEMA will
        advise the Agency of its determination regarding high risk
        designation within 90 days of the receipt of update report.

        FEMA will explore options to limit or restrict access to future and
        current grant funds until the Virgin Islands Territorial Emergency
        Management Agency Director can demonstrate that procedures are
        in place to safeguard federal funds against fraud, waste, abuse, and
        mismanagement. FEMA will make an initial determination
        regarding the information obtained and advise the Virgin Islands
        Territorial Emergency Management Agency of its findings within
        90 days of the date of the grantee notification letter.

        With respect to recommendation 22, although FEMA concurred
        with the recommendation, it stated that it is not in a position to
        require the Virgin Islands Territorial Emergency Management
        Agency to hire a third party fiduciary to manage its grant funds.
        FEMA stated it will discuss various options with the Virgin Islands
        Territorial Emergency Management Agency Director and include
        viable options as part of the Corrective Action Plan. FEMA will
        require an update report from the Virgin Islands Territorial
        Emergency Management Agency within 90 days of the date of the
        grantee notification letter stating their determinations with
        supporting justification for hiring a third party fiduciary.

        FEMA requested that recommendations 20 through 22 be resolved
        and remain open pending implementation of the corrective actions.

        Virgin Islands officials did not agree with recommendation 20.
        The officials said that since the inception of the new organization,
        personnel have reached out to the grantor agency to introduce new
        personnel and sought guidance as to corrective remedial actions
        needed. The officials also said that significant changes and

The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 39
        improvements have occurred since the reorganization with
        improvements in timely reporting, establishing internal controls,
        documentation of protocols, and overhauling grants management.
        The findings in the report, according to the officials, were from
        years prior to the reorganization and do not accurately reflect the
        new organization. The officials agreed that there are areas that
        require staff training to improve further compliance but disagreed
        that the organization should be considered a high-risk agency.

        For recommendation 21, the officials said that improvements have
        been realized during the 2009-2010 grant period. Staff have
        participated in training and the officials believe that grants with
        further restrictions and conditions would hamper the Territory’s
        ability to utilize funds timely and effectively, and would have a
        negative effect on protecting the people of Virgin Islands during all
        hazard emergencies. Increased regulations would negatively
        impact the Territory’s preparedness and ability to effectively meet
        core capabilities.

        For recommendation 22, the Virgin Islands officials are opposed to
        a third party fiduciary to manage its grant funds. The officials said
        that hiring a third party would be the least cost effective method of
        achieving the desired results to improve compliance.

        In view of the magnitude and span of time that the Virgin Islands
        Territorial Emergency Management Agency has experienced
        management problems, we continue to believe that a designation of
        high risk is appropriate. The recent improvements are clearly a
        positive beginning. However, continued attention is needed to
        reduce the risk that federal grants will be mismanaged.

        Although the corrective actions proposed by FEMA, if properly
        implemented, may resolve the recommendations, the Virgin
        Islands’ disagreement with the recommendations and its history of
        grant mismanagement could hamper the successful resolution of
        the recommendations. Recommendations 20 and 21 are
        considered resolved and will remain open until such time that
        corrective actions have been implemented. Until a firm timetable
        is provided for recommendation 22, the recommendation is
        considered unresolved and open.




The U.S. Virgin Islands Management of State Homeland Security Program 

         Grants Awarded During Fiscal Years 2007 through 2009 


                               Page 40
Appendix A
Purpose, Scope, and Methodology

                    The objective of this audit was to determine whether the U.S.
                    Virgin Islands spent State Homeland Security Program grant funds
                    strategically, effectively, and in compliance with laws, regulations,
                    and guidance. The goal of this audit is to identify problems and
                    solutions in order to assist FEMA and the Territory to improve the
                    nation’s ability to prevent and respond to all hazards on a local as
                    well as a statewide level.

                    The scope of this audit included the plans developed by the
                    Territory to improve preparedness and all-hazards response, the
                    goals set within those plans, the measurement of progress towards
                    the goals, and the assessments of performance improvement that
                    result from this activity. Further, the scope included the
                    assessment of these activities within the context of risk to
                    determine if the Territory’s plans produced strategic performance
                    improvements related to the highest areas of risk rather than
                    merely producing improvements in a broader sense.

                    Together, the entire Homeland Security Grant Program and its five
                    interrelated grant programs fund a range of preparedness activities,
                    including planning, organization, equipment purchases, training,
                    exercises, and management and administration costs. Because of
                    the interrelationship of these grant programs, all were considered
                    when evaluating the planning cycle and the effectiveness of the
                    overall grant program. However, only the State Homeland
                    Security Program funding, and equipment and programs supported
                    by the grant funding, were reviewed for compliance.

                    In accordance with the audit guide provided by the DHS Office of
                    Inspector General, Foxx & Company auditors visited the
                    Territory’s State Administrative Agency (Virgin Islands Territorial
                    Emergency Management Agency) located in St. Thomas, Virgin
                    Islands. Grant funds were not allocated to subgrantees, Territory
                    agencies, or first responders. The expenditure of grant funds was
                    made by the State Administrative Agency for first responders. The
                    first responders in the Territory were the Police Department, Fire
                    Department, and Emergency Medical Service. These first
                    responders were visited to gather information for several steps in
                    the audit guide.

                    The Homeland Security Grant Program awards to the Virgin
                    Islands for FYs 2007 through 2009 included the following
                    programs and awards:



            The U.S. Virgin Islands Management of State Homeland Security Program 

                     Grants Awarded During Fiscal Years 2007 through 2009 


                                           Page 41
Appendix A
Purpose, Scope, and Methodology

                                       Homeland Security Grant Program
                                           FYs 2007 through 2009

                     Funded Activity       FY 2007       FY 2008         FY 2009       Total
                   State Homeland
                                           $1,270,000    $1,850,000      $1,430,000   $4,550,000
                   Security Program
                   Law Enforcement
                                                          Not             Not
                   Terrorism
                                             $910,000   Applicable      Applicable     $910,000
                   Prevention Program
                   Citizen Corps
                                              $39,528       $39,556         $39,570    $118,654
                   Program
                      Grand Total        $2,219,528 $1,889,556           $1,469,570   $5,578,654
                    Source: Federal Emergency Management Agency

                    At the State Administrative Agency, we interviewed responsible
                    officials, reviewed documentation supporting management of the
                    awarded grant funds (including expenditures for equipment,
                    training, and exercises), and physically inspected some of the
                    equipment procured with the grant funds. In addition, we met with
                    representatives of first responder organizations, fire, police, and
                    emergency medical services, to discuss the grant process and the
                    benefits the grant funds have brought to their organization and
                    communities. We also met with a representative of the University
                    of Virgin Islands to discuss the training provided under the
                    Memorandum of Understanding with the State Administrative
                    Agency.

                    We also conducted interviews and reviewed documentation at
                    FEMA headquarters and Territory offices. To determine the
                    effectiveness of the Virgin Islands’ grant program as well as
                    compliance with applicable grant requirements, we reviewed the
                    key management processes, interviewed Territory officials directly
                    involved in the management and administration of the U.S. Virgin
                    Islands Homeland Security Grant Program, and conducted
                    inspections of equipment procured with federal grant funds. The
                    team reviewed and analyzed data related to grant management and
                    associated management processes as identified from discussions
                    with Territory officials at the beginning of the audit. These key
                    management processes included:

                    •   Threat, capability, and needs assessment
                    •   Grant application preparation and submission
                    •   Grant expenditure and reporting
                    •   Grant monitoring


            The U.S. Virgin Islands Management of State Homeland Security Program 

                     Grants Awarded During Fiscal Years 2007 through 2009 


                                           Page 42
Appendix A
Purpose, Scope, and Methodology

                    We conducted the audit between January 2011 and June 2011, in
                    accordance with Government Auditing Standards as prescribed by
                    the Comptroller General of the United States (2007 Revision).
                    Those standards require that we plan and perform the audit to
                    obtain sufficient, appropriate evidence to provide a reasonable
                    basis for our findings and conclusions based on our audit
                    objectives. We believe that the evidence obtained provides a
                    reasonable basis for our findings and conclusions based on our
                    audit objectives.

                    Although this audit included a review of costs claimed, we did not
                    perform a financial audit of those costs. This was a performance
                    audit as defined by Chapter 1 of the Standards, and included a
                    review and report of program activities with a compliance element.
                    Foxx & Company was not engaged to and did not perform a
                    financial statement audit, the objective of which would be to
                    express an opinion on specified elements, accounts, or items.
                    Accordingly, Foxx & Company was neither required to review, nor
                    express an opinion on, the costs claimed for the grant programs
                    included in the scope of the audit. Had Foxx & Company been
                    required to perform additional procedures, or conducted an audit of
                    the financial statements in accordance with generally accepted
                    auditing standards, other matters might have come to their
                    attention that would have been reported. This report relates only to
                    the programs specified and does not extend to any financial
                    statements of the U.S. Virgin Islands.

                    While the audit was being performed and the report prepared under
                    contract, the audit results are being reported by the DHS Office of
                    Inspector General to appropriate Federal Emergency Management
                    Agency and U.S. Virgin Islands officials.




            The U.S. Virgin Islands Management of State Homeland Security Program 

                     Grants Awarded During Fiscal Years 2007 through 2009 


                                           Page 43
Appendix B
Management Comments to the Draft Report




                                                                                             LS. [)"partmc-nt of lIomdulld Sc-"udt)'
                                                                                                         \\"Jshin~iI>l1. 1)(   2i)472




                                                         NOV 2 3 2011



                                                 ,\nI\C L. Richards
                                                                                         Audits


        FROM-
                                                 I)ircctor
                                                 Office of Policy and Program Analysis

        SUBJECT:                                 Comments to OK-; Draft Rep0l1. The Virgin Islands' .-\1mwgcmellt of State
                                                 Home/and Security Programs (.)'IL~P) :hmrdcd dllrinr~ Fi.I\'(1/ Years 2007
                                                 through 20(}9



        Thank you for thl.; opportunity to comment on the draft report. The findings in th!: report will be used
        to strcngthen the dfcctivencss and efficiency ofhO\v we execute and measure om programs. 'yie
        rccof,'11izc the nced to continue to improve the process, including addressing the rt.x;ommenclations
        raised In this report. Our responses to the rccommt'l1dations are as follows:

        OIG Recommendation #1: We recommend that the Assistant Administrator, (,rmll Pn,'tgrall1s ])ireelorate
        (GPD). l'l'(juin; the Director of the Virgin Islands TC1Titorial Emergency Y1an<l~clllcnl :\gcllCY (VITEMA) to
        prep,llT ,1 r~>, iscd Slr<11c.£!), 111<.11 includes: (a) lhe Territory's current goals and \1hjCl'ti\ L'S for cnlwllcing tts
        abilit) t(l PTl'\ I.'lll. prcpvrc fi'r. rrol,cct against. and respond to naturtlJ dis:l"l('r~. <lcts of lcrrnrisl1l. <lnd other
        \11;1ll-~l1;ldc d~s;htcr< ;J!1d (i,) J.!(J'lb. ;:nd objectiyc::; that (m.~ speciflc. mc;l~m~lL'k. ;h:hin ,1b1c. ~\. ':~llil s-ilricnlcd.
        ;l:ld   li'l:,,·ll:l1l!~·d




                   The U.S. Virgin Islands Management of State Homeland Security Program 

                            Grants Awarded During Fiscal Years 2007 through 2009 


                                                                    Page 44

Appendix B
Management Comments to the Draft Report




        l\b.1"'l'!l\\"~
                      tlwi l'llhdl1Cl' the Tcrriwry·:-. ability to pren:nL prepare i()r, ;md n:::-'r','lld tl\ 1);1\\lral di,~a"t...T:-'. 'Il'):., ul'
        telT\'ri~Jll .•md  I'tller IlJan-l1ladc di~astcrs, Th.: goals and objectives ,In.? spc..::itiL', IllL'a~ur'\hlt.:. ilChi\:\;lhlc.
        rcsuils \ll"1-.:ntcd. and timc-llllutcd, GPD will continue to assist the Yll"E\!" Dirl.!ch1r \, ith update..; to tht.:
        qra1l'i-'~ ;l~    nCL'lkd,




        OIG Uccommcndation #3: \\"e H..'C(\lllllh:nd that the Assistant Adll1ini.~lralnr, (iPJ), require the Diredl'r Ill'
        V ITF:VIA 10 cstablish Pl1lkks and phh;edures to adequately justi fY i,nk ~mln,;l' prnl'UrClllL'llh. CnStll....• Ihill CI1st
        al1<lly"e~ <-Ire PCrii)1111Cd in acetm.bncB with federal regulations. and oblmn IT\1A appro\,l1. ;l~ Ilcccssary. for
        sole source prOl:urelllcllts.

        FEMA Response: Rekr to FEMA response under rcspot1St.: to recommendation f14 beltl\\.

        OIG Recommendation #4: We recommend that the Assistant Administrator. UPI), require the Director of
        VITEMA to c~tilbli:;h \1()licics and procedures to ensure that documentation regarding comrad ac1ivities is
        maintained.

        F'Ei\lA Response to Recommendations #3 and #4: FEMA concurs \vith these rccomm~ndations,

        FEMA will require the V1'1'EMA Director to develop sole source procurement Standard Operating Procedure
        (SOP). The SOP will include polkics and procedures that adhere 10 federal regulations as wdl as USVI
        TelTitorial g()\'\:rnrnental policies and procedures, [n order to \'eriCy impicmentation, IT:\V\ will rcquire an
        update report on pnlgrcss from VITET'vlA within C)O days of the date oCtile grantee llPlifi"':<Jtiolllettcr on this
        required cOr/Teli\'!.; <'1(;liol1.

        FEMA requests Ihcse rccoml1lendations be resolved and open pending implcmCill;t1iOll I,('the stated C01Tective
        acli,·ns

        01(; RCCOUlllll'ndation #5: \\\' a:;cnrnmcnd thm th(.; Ac:sistant i\dmii~i"l;-~l',\[, l irJ), --,-,qui:".: the j)ircdc1r ui'
        \-'11'1 '\1-\ :,' d   ",'~;t;),                                                        ('1' ~:;c '>;-~   l [,- ")::-;l.l \: [-)C:'!h:1;-!:1(:




                  The U.S. Virgin Islands Management of State Homeland Security Program 

                           Grants Awarded During Fiscal Years 2007 through 2009 


                                                                      Page 45

Appendix B
Management Comments to the Draft Report




        rr\l,\       r~'qucst:-   (hi:- n:colmncr:duriull he resolvcd and open p.:ndinf!     ill1pknll'1l\d\l\111 pi-lilt'     stalcd COlTccli\t,;
        ;ldi\1!1~,



        OIG Rl'commt'ndation #6: \\·c rt..'c0111rtlend lhallhc A~si"ldlll .-\d1l1inisll'a1l'r, liPD. r..:qutrc the ])H..:ctor of
        VI fE'-L\ to dc\,clpp;1 ::;y::.l":)l1 t~1 m<:llllt;l1ll required recurds In Ll""ure c()lllpllancc wllh gr~\!lt r":Ljuircllh.'tllS.

        FE'\J..\     n.cspon~(':     1·'1-:\1,\ C(11lCllb   wlIh   lilts recommendation.

        f'F\tlA \\ill rcqulH' rill' \'lTl':\[:\ [)rrcctorto develop a re{,.:ords lWm;:igcllwlll S(}P. J'hl;.' S()P \\ill inc[udc
        procedure" for maintaining ~r;11lt records and <lssociJtcd documents. In order to \'erify lmpklllellt~ti\ln. FEMA
        \v1ll requirc an update rqwn on progress from VITE:vlA within 90 days ofthc date orth,.' g-r,mtc..: notification
        letter on this required (:~))Tl.'l.'li\'e action.

        FEMA rcqu~sts this recommendation be resolved and open pending impicmentatlOll of Ih.:- slated corrcetiyc
        actions.

        OIG Recommendation #7: We recommend that the Assistant Administrator, GPD, rcquir.:: the Director                                     or
        VITEMA to reconslruetthe records snpp0l1ing the S3,429,214 drawn down for the FY 2007, 2008, and 2009
        grant mvards.

        FE":,\-lA Respons(': Refer 10 FEMA response under response to recommendation #8 beIl                          1 \\".




        OlG Recommendation #8: We recommend that the Assistant Administrator, GPD. require the Director of
        VITEMA 10 r~'llmu /.n FE:vlA any funds for expenditures Ihat cannot be SUPP011Cd h~,' ilppropnatc
        documcnt,llitm,

        FEl\'J.\ Rl'sponsc: FF\L\ conwrs with recommendations;'17 and #8

        Within ()(\ d!1:-;" pj" :hL: d,llC (,I" (ile ~r;1lltce notification lene!', FE:Vl;\ \vil! l'nluHl' !hc \ -J 1'1",\1,\ !)in.'Ct('I· t(l
           ,'il']l i:nd 1111pll'iTlt:11.'_ d ((If[Tctl\ (' ,,~c;iot1 plan (C AY) [n rccon:o;tnrct ~r;1JH !ik~ ,md ,111 d~"('Cl;(rCd n:cl11'd" FH'
        d.\.'\




                 The U.S. Virgin Islands Management of State Homeland Security Program 

                          Grants Awarded During Fiscal Years 2007 through 2009 


                                                                          Page 46

Appendix B
Management Comments to the Draft Report




        ole RI.'comm('ndation             #9: \\'c rCCllll1111end that the A:-.sislant Adrninr;"(;-,lh'r. tiPP. n.:quin.: the Dircctuf or
        \ 11 F\ L\   \,1   dl,.'\ dllp and 1I1lplcmenl procedures to ensure thal prppcrl;. n.y,'rd~ cl)l1lpiy \\-ith im ell\OfY
        rl,.'lluircln~'l1ts l~)r equIpment purch:1'icd \\'ith kdcral funds.


        fE)IA    I~c!rtpon~c:   !·T\L\ C,)Jlcurs \\ ilh tlus rCCl\llUllendJtion.

        ,. 1:.\1/\ \\-ill require tIlL' \ '[TF\-L\ Dm:ctor tu develop a property managemellt allli ill\'Cl110r~ SOP The SOP
        will adhLTe [n procedures sct 1(111h In ritle 44, Code of Federal Regulation>;, ,,('eli,)!) ! 3.3:. as well as l,'SVI
         i crriloriai gmertlIllCl1l pl1lkics ,llld procedures. The SOP must also inclmk "ystClIWlic pl'llccdurcs I~)l
        pruPL'11y managcmcnt and ill\ ~'nhlry. In order to verify implementation. FEVl/\ WJlI rcqum! ,lll Upd~lll.' rcp0l1
        on progrcs~ from \"1'1"1-:\-1:\ within 90 days o.rthe date of the grantee notification ktter onlhis f<.'quin.::d
        corrcetivc net ion.

        FE:'vlA rcqucsts this rccommendation be resolved and open pending implementatJon oflhc stated corrective
        actions.

        OIG Recommendation #10: V'/e recommend that the Assistant Administrator, GPJ), require the Director of
        VITEMA to withhold Federal grant fund awards until thc grantce is in compliance \-'lith the property records
        and inventory requiremcnts.

        FE!\-'lA Response: 1·'E.\-1;\ concurs \-vith this rccommendation.

        FEMA \-vill n:quirc the VITEMA Director to develop a propc11y records and invenh'ry SUP. in order to
        verify impJclllClll<lllOn. ITMA wiJ[ require an update repol1 on progress from VfTl·:f\L\ within 90 days of the
        date of the gr,mtel" n(}tlfical i()11 letter on this required corrective aclion. FE\;l/\. \\ ill consider ()ptiol1s to
        withhold fundin[! unlil Ih(; S()P is developed and approved as part or an ovcrnll t ·,\P. FI·:\1A wiH apprise
        VITF\1.-\ (,rib!::' dc(crminalil)l1 within 45 days of the date of the grantce notilic:ninl1 icun.




                The U.S. Virgin Islands Management of State Homeland Security Program 

                         Grants Awarded During Fiscal Years 2007 through 2009 


                                                                  Page 47

Appendix B
Management Comments to the Draft Report




        11l1pkmcl\t~1!i()n.   1,']:\1/\ \\'111 n:qlllrl' i.m update report on progress fwm \-1 1'1:\1,\ \\ il11l11 ()()   d;jy.~   (li"lhe dale qf
        1he granh.'L' n\ltilicilll()ll kUl:r   ()n thL~ rcquired corrective action.




        FF\1.-\ request" Ihis rccormncnuatioll be rcsoh-cd and 0PCll             pcndil1~   imp1cmcntalill11llflhc "tateu cnrrectiq:
        acOm)",


        OIG Recommendatiou #12: We n'::C()['tlll1L'wl that the Assista1l1 ,·\Jmini:--lr'1tOf. (iPD. requirc the Din:clllr ,If
        VITL\1A 10 cxpedlte the pro..:urclllel1l (lfradins that are compatible with the modules. ilnd lIlstall the tlhldu\cs
        ~1." illlCJldcd.


        f'EMA n.esponsc: Rdcr II) FF\IA response under response to nxommendalioll ,"I ~ bchm

        OIG Recommendation #13: \Ve recommend that the Assistant Administrator, GPD. require the Director of
        VITEMA tp return the 5.201.250 to l·liMA if compatible radios are not procured.

        FEMA RespotJ:\c: H':MA concurs \vith recommendations #12 and #l3.

        FEMA will require the VITEMA Director to pnwide documentation and written ceni1icalion that radios
        compatible with encryption modules arc procured and the encryptions modules arc instaHed as intended. In
        order to verify implementation. FEMA \vill require an update report on progress from \' JTEMA within 90
        days oCthc date dtlle grantee notification lettL,]" 011 this required corrective actio11, FE;\IA will consider
        options to reco\-e1' Gssociated costs if the VITEMA Dircctor cannot provide documentation to support
        procurement il11d inslnllation orthe aforementioned equipment. FEMA will apprise V ITLMA oJ"lhis
        ddcnninat.i(,1l wJ\hin 45 days of tile date of receipt of subject documcnlation rrom \"]'['1:\-1;\ or upon
        insufficiem ,1r 111' n.x:eipl o/'subjcct documenta1ion from VITEMA within 90 days ;-]f!cr Ihe grantee
        notifkalil)1l letll:r.

        FE:'d . \ requests Ih..::",c recommendations he resolved Dnd opcn pending impicml'lllath'll I,fthc :.tiitcd C(11Tcctive




                  The U.S. Virgin Islands Management of State Homeland Security Program 

                           Grants Awarded During Fiscal Years 2007 through 2009 


                                                                   Page 48

Appendix B
Management Comments to the Draft Report




        ,111   \'1' f)~lri ~1rlhc   fc>.: palU   \(1   L\T 1-'1'.\1.,\ willapprise VITL?vlA of tIm,       tktLTlll1Jl<lt!I'l1     \\]\11111 (,0   day.~   (lflh..:
        d;l1e \lflTC>.:ipt     11f   ~'lhjCd d(lI.:Urn';:Il\U!IIHI    from \'11'L\lA.

        /·T\L\ requcsts this recol1lmcndati()ll h,;: r';:;:iolved and open pcndill!.-'- implcmcnt;Jtit.'n \If the                           .~iatcd   corrective
        actlO]b



        Ole; Recommcndation #15: \\'c rCC(lrnnll'lld that the i\ssiSl<1Ht Administrator, (jPD. n::quirc the I lircdl\]" Ilf
        VITL\L\ 10 require dWl future agn:ellll.'IHs 'with UVI be made thruugh conlractu,ll agreements 1)1" thr~lugh
        :-'llhgra!ltcl: '-1!.-'-rCCI1lCI\lS.

        FI'::\'IA Response: tT'\L\                 I.:lml.:urs   with this recommendation.

        FFMA will require the VTTEMA Director to submit wliltcn certiGcation that all fulure Jiduciary agreements
        in regards to IT\1;\ preparedncss grants with VV I are made through eontraetuall)r sLlh1!r:lll!<:c ;lgrcc-mcnts.
        Additionally, ITM.\ will require thc Director ofVITEMA to develop a grants mamlgclllcllt SUP that will
        tncludc procedures ll)r ~ubgranling funds, Tn order to verify implementation. FEIv-tA wdJ n:quire an update
        report on progress fn)J11 VITEMA within 90 days of the date of the grantee notifi.cation L. !tt~r on this n .'quired
        corrective action.

        FEMA requests               thi~   recommendation be resolved and open pending implementation of the stated corrective
        actions .

        OIG Rccomm{'udation #16: We recommend thnt the Assistant Administrator, GPJ) . rl'quire the Director of
        VrrEMA to pHn ide documentation that supports the questioned s<l]ary costs of S:'6" . (l119. including the
        S:W . IOO th;l! c"\ccedcd 111e I 5°'{) lirnit, or rccover the amOUltt not supported.

        FEM.\        Rl'!oPOIISC:      Rd'<.T «1 F[-.:v1/\ response under response 10 rcc()mmCndali(lll                     IS hl'iow.

        OIG RN'omm('ndlltioll #11: \\'c fl.:C01l1JnClld thl1[ tile Assist;ml Adminis(!-;:111!'                         ~ ;PD.     require the DilTl;((l; of
        \' Ii f- \ 1-\ 1l' ,,'''-; ,1hlhl1 C\ ~1H(il\ 111 (.""fbun.: cnmpliQllce w'ith f<.xkral reuul: '--':11~'llt~                   ! he :in'l!;:lllln, of
                                                                                                                       ~"Yl,','; :lil"!::




                    The U.S. Virgin Islands Management of State Homeland Security Program 

                             Grants Awarded During Fiscal Years 2007 through 2009 


                                                                              Page 49

Appendix B
Management Comments to the Draft Report




        IT,\l;\ \\ illl'cl.juJrc lile VII \:\1;\ iJlro:tor to develop a time a1ld attend,IIlI.:'-' S()p and c:;l,lhlisn poilci(;:-. llUll
        I"cquirl.' L'(Tlilir.:al1<11l oCttn1ccards 1(.,]" ,ti! personnel paid with FElVL-\ pn:paredne~:; g]"im!;;. Additlonall). I:L:VL\
        \\ 111 rcqUlrc till' VITL\'I,\ fJin.:ctnr to submlt documentation Ill;::! ;;uppm1!' thL' qUL';;!it1llcd salary cost:-. 1\1
        11l,:ludc the S:l.100 that exceeded Ihe 15"·" I1mil imposed b~ \'"J:;\l.-\. In (>rdcr ttl \"l'ril\ illlpkmcnlil!l(ln.
        1-'1:\-1:\ will nXjUlrCan upd~k' rep,)rt (111 pnlgrl':;S (r,11ll VITE\lA wjlhl1190 ,lilys (1(lh(; d~ttc Oflhc )!r;tIltec
        nnlific<ltinll leW.:r un Ihis rCljl1ircd ":l)lTe("tiv..: auiun. FE~lA \\/ill nnalY/c the Jocumc11lati('tl h) dek"l"tllille if
        costs did indeed CXCL'CJ the 15" l' limit and lakc appropriate stl>p!' to rccmn Ill!.: funds in ql1C:->tiOll. FI':\I.\
        will appri-.e V ITF\L\ tll" lhi;; dClL'rminatill!1 within 90 days of the U8te of nxcipt of suh.icei d,,":UlllL'tH,ltinll
        from V ITL'vtA

         FEMA requests thl'S': rl'C('lll!llClldations be resolved and open pcnding implemcntation oi"lhc slall.'d
        corrective actions.

        orG Rccommcndation #19: Wc recommend that the Assistant AdministratoL GPD. rcquin: the Director of
        VITEMA to establish <111d comply with proeedurc':> to ensure that 'financial status n:pnrts arc preparcd and
        suhmitted in a timely manner in accordance with federal requircments,

        FEMA Response: FEMA concurs with this recommendation.

        FEMA \:viU require the VITEMA Director to estahlish a grants management SOP. The SOP must establish
        procedures for pn;~p;l1'ation and timely suhmission of financial status reports as well as any other reports
        required by FEJ\-L\. In order to verify implementation, FEMA will require an update report on progress from
        VITEMA within 9() J<Jys of the date of the grantee notiJieation letter on this required corrcctlve aclion.

        FE~1A      request;;   thi~   recommendation be resolved and open pending implemcntntinl1          i)!"   the ::.Ia!ed cOlTcctive
        actions.

        O}(; Rccomnu'mlation #20: We recommend that the Assistant Admlnistralul·. (;pn.                 ,1SSC<;<; the Virgin

        T"l:wds' .~r'int plTillnnkl11c(: ,me! h<l~cd on that assessment defermine ifthc <-;lal~' \dl11i1l1<,\r;tli\l; i\j~CJ1(:y (S;\/\)
        ~h;uld h' dC~'l;lT'l'd d hi;-;h ri~~ ;:1',11]1(.'('




                The U.S. Virgin Islands Management of State Homeland Security Program 

                         Grants Awarded During Fiscal Years 2007 through 2009 


                                                                Page 50

Appendix B
Management Comments to the Draft Report




        [:[, \1, \ :'l"lllcst"   tll1~ rcc()J1llnCnd;lti()t1   he rest1!yed and open pendill!; inll'lc111enl,ll1('11   ()!'   the :--t,11cd   C(lnectl \...:

        ;ll.'tl\\n::;


        01(; Recommendation #21: We n:col11l1lcnd 111(1\ the ;\:;si:-.t~nt ,-\timini:;t1"!llll1'. (jPD, dcn:lup and l1nplcmc111
        prnccdurcs \\-illl spci..:b\ c(\nditlllll::; :llld n:slrictwlls tu ClL~un: th,ll future !-CrimI'> )(Il11e YirStll bbmb an.:
        m<lna!-Ced in ,!\,:cordancc \\'lth (-.-dewl n:quirClllcllts Hnd that the rLJnd~ ,lrC mkqudtc\y sakguartkd ag,lillsl rralllL
        \\;)qc, abiJ~L', and 1lIism'\Il'l?!L'l1lell\.

        FE\1A R~!ipomc: iT\t.\                CdllClllS \\     ith this recommendation.

        FEMt\ willl:Xpl(lJ'<.:' l1pti\1lb t\l limit or restrict access to future and current grant funds until sud! a time that
        the vn EMA I)Jrecwr call tienlonstrate that proper procedures arc established ilnd in plaL:c to sa!(:guard
        feder8j funds against rr<lud. waste. abuse.. and mismanagement. FEMA \Ovill makc an inai;!! dch.'rmination
        and apprise VITE\'[ ,'\ ~1r findings within 90 days of the date of the grantee notification Jetter

        FEMA requesb this recommendation be resolved and open pending impkmentation of Ihe slated corrective
        <'lctions


        OIG Recommendation #22: We recommend that the Assistant Administrator. GPD. consider requiring the
        SAA to hire a third party fiduciary to manage its gram funds and assist in resolving the financial management
        issues,

        FElVIA Responst': FEM/\ concurs with this recommendation,

        FEMA is n\11 ill a po"ition to require the VITEl\.'lA Director to hire a third party lidllciilry to manage its grant
        funds. fhnH'\Cr. FE'v[;\ \vill discuss various options (c,g. utilizing contrac1ors pr inlcms 10 assIst in rcso]-ving
        udmini::;trati\ e <1lld l'im11lci<l! issues) wilh the V{TEMA Director and include .111 \ i;lll1<.: 1']111(1)S a<., rart of the
        CAP. In (Order 1\) \'crify rr(l~n.:~:~ l.owurds completion, FF?vIA will rcquire'1I1 upd'lll' rCp(lrl IJ'(1111 V!TL\1A
        within '1(1 da~ s 1'1' ilK d;ll,C i'l' jhe ~[';llltcc noli 11catio11 letter stntin)1 their dl'k'rm1T1<11 i, '11" \\ i, h '-,uppol1ing




                    The U.S. Virgin Islands Management of State Homeland Security Program 

                             Grants Awarded During Fiscal Years 2007 through 2009 


                                                                          Page 51

Appendix B
Management Comments to the Draft Report




             VITEMA VIRGIN ISLANDS TERRlTORlAL EMERGENCY MANAGEMENT AGENCY
               8121 NlSK\', STI'IIQMAS. VI 00801      102 HERMON HJLL, sr. CHOIX. VI 00820     6 SUSANNABERG. ST. JOHN, VI 008J
               TEl- (340) 774-2244 FAX (340) 715447    TEL. (340) 773-2144 FAX (l40) nB-8980   TEL. (J.40) 176-6444 FAX (340) 179-4266




                                                        September 30, 2011


          Mr. Martin W. O'Neill
          Partner
          FoxX & Company
          Certified Public Accountants


          Dear Mr. Martin:

          Attached are lbe responses to lbe Draft Report: The U.S. Virgin Islands Management
          oJ State Homeland Security Program Grants Awarded During Fiscal Years 2007
          through 2009 lbat performed by Foxx & Company on behalf of tbe U.S. Department of
          Homeland Security Office of Inspector General (DHS/OIG).

          Please note lbat lbe exit conference is scheduled for Friday, September 30, 2011 at lbe
          VITEMA Headquarters located at 1A & IB Nisky, St. Thomas, Virgin Islands.




                                                                 iiLu.\
                                                                      BG Elton Lewis
                                                                      Director




                                  "ENVISI0NIN6 THE FllTUiIE AND SETTING THE AGENDA"




             The U.S. Virgin Islands Management of State Homeland Security Program 

                      Grants Awarded During Fiscal Years 2007 through 2009 


                                                               Page 52

Appendix B
Management Comments to the Draft Report




                                                BACKGROL'ID




        VITEM.,\ was reorganized as outlined in Act No. 7074 \vith its implementation October 9, 2009.
        11102reorganization entailed consolidation of all emergency management functions under one
        entity in compliance with Incident Command Stmcture (Ie'S). The fUllctions are e-911 Call
        Center, the Puhlic Assistance (PA) Program, and the VI Ollicc of Homeland Security (VIOHS).
        The Virgin Islands Police Department (VIPD), the Office of rvlanagement and nudget (Orvin)
        <Uld the OfTice of the Adjutant General (OAG) had oversight responsibilities for these areas
        respectively. Consolidation of functions under the VITEIvlA umbrella was considered Phase I
        of the reorganization.

        Phase II was the construction of a state-of-the-art facility' that encompassed all of the
        consolidated components: offi.ce space; an Emergency Operations Center (EOC): video-
        teleconferencing capabilities: e-911 Call Center. SClf; fusion Center; as \yell as DIIS and our
        othcr federal partners that provide suppot1 for hoth natural and man-made incidents. This
        undet1aking transfonned a fonner warehouse configuration to a facility" on par \vith or better than
        most on the mainland \vith 95 0/0 local funding.

         At thc time of thc ITS Dcpartment of Homcland Sccurity (DHS) technical a<;sistancc visit in
        .l'vlarch, 2010. the staff had recently moved from its respective locations only t\-yO weeks prior.
        For clarification purposes. four o[ the key personnel o[ the VIOHS stalT did not male the move
        due to resignations, transfers and retirement. Additionally. not all of the positions under the then
        Office of the Adjutant General moved over to the new organization. Further, as a measure to
        streamline and consolidate functions for consistency. several positions were reclassified mld new
        position descriptions \vere crafted in order to align with the VI Division of Persotu1el standard
        policics as well a<; thc GOVClllor'S vision for thc "1\C\'V VITE}'LA".

                                                                                      nd
        Morcover. since thc DHS Technical Assistance Dclivery in March. 2010 (2 quarter FY 2010),
        the Virgin Islands has experienced tropical stonns, hurricane close calls, explosions. and cruise-
        ship emergcncies. Howcvcr. wc werc suhsequently stmck with not one hut three major disasters.
        On September 24. 2010 the President declared a disaster for Hurricane Earl: on )Jovember 4.
        2010 [or Tropical Stonn Otto and November 24. 2010 [or Tropical Stonn Tomas. Both the
        Grants rvlanagement and the Administration and Finance stafI \vere required to change foclls to
        response and recovery activities for a period into the second quarter of FY 2011 in order to meet
        the requirements of the Stafford Act. Once situational stability was established. eflorts resumed
        to routine Homeland Security grant endeavors as well as management of long-lenn recovery
        mea':mres.




                The U.S. Virgin Islands Management of State Homeland Security Program 

                         Grants Awarded During Fiscal Years 2007 through 2009 


                                                     Page 53

Appendix B
Management Comments to the Draft Report




                                                        2


        NOhvithstal1ding all of the above intenllinent unforeseen circumstances. the "New VITE11A"
        has tumed the comer on ali,gning b'Tant activities \vilh the designated investments; improved
        reporting; researched inventory tracking systems, moved towards consistent and reliable
        communications: upgrades to intemal controls have promoted accountability and responsibility.

        Staff trainings. first responder trainings and specialized intelligence trainings have been
        conducted routindy to maintain competency levels. Grants Ivlanagement enhancements have
        been realized in the areas of internal procurement procedures consistent \vith Administration and
        Finance directives: CotTCSpOlldcncc tracking; grant systems authori7ations; and definitive
        designation of drawdown responsibilities.

        Further. routine programmatic and financial statT meetings are held in order to monitor and track
        adhcrcncc to grant knns and conditions so that improvements may be realized. In thc craning or
        Memorandum of AgreemenVUnderstanding for various functions rdative to trainings, exercise
        <Uld outsourcing, the VI Depm1ment of Justice is providing technical assistance and guidance
        prior to any commitments.

        Lastly, Phase III of the reorganization implementation entails acceptance of position
        descriptions that are both in tandem ""ith standard grant functions, VI Division of Personnel, and
        the VI Office of I\.lanagement and Budget's promotion of the Virgin Islands Economic Stability
        Act of 20 11, which has resulted in drastic reductions in available support personnel.

        In summary', VITK\IA acknowledges that there were deficiencies in certain areas of grants
        managcmcnt compliance for grant years prior to the consolidation. As a result the '"1'\C\V
        VITEMA" embarked on establishing and executing corrective measures to improve grants
        managcment processes. The cOlTcctive measures were initiated prior to the commencement of
        this audit. These measures have addressed those conditions which ,,'.'ould have warranted the
        Territory to be adversely classified. The processes that VITE!',ilA have put in place will continue
        to protect the integrity ofthe organization mld federal funds as well as enhance the Virgin Islands
        capabilities in promoting the security of our homeland.




        FIl'\DING:            STRATEGIC GOALS AND OB.JECTIVES

                              Do Not Concur.

                              Re('ommendation #1: Prepare a revised strategy that includes: (a) the
                              Territory's current goals and objectives for enhancing its ability to
                              prevent. prepare for, protect against, and respond to natural disasters, acts
                              of terrorism, and other man-made disaf:..1ers, and (b) goals <md objectives
                              that me specific, measurable, achievable, results-oriented, and time-
                              limited.




              The U.S. Virgin Islands Management of State Homeland Security Program 

                       Grants Awarded During Fiscal Years 2007 through 2009 


                                                    Page 54

Appendix B
Management Comments to the Draft Report




                                                   3


                         The Virgin Islands already has an updated Strategic Plan from which the
                         Investment Justifications and grant award were approved by the federal
                         grantor agency. Although there is no evidence that the Plan had been
                         updated and submitted in the Grants Reporting Tool, VITEMA has
                         retrieved a copy of the final Strategic Plan for the period in question (See
                         Attachment #1).      The Territory would reason that the Investment
                         Justifications and the award would not have been approved and funds
                         released without DRS's knowledge of the updated Plan as this is a
                         regulatory prerequisite. The updated Plan provides completion dates
                         beyond this audit period. VITEMA has entered its new five-year Strategic
                         Plan in the Grants Reporting Tool portal and have received written
                         approval from the grantor agency as required.

                         Responsible Person: SAA-POC


                         Recommendation #2: Submit the strategy for FEMA's approval and use
                         the revised, approved strategy to prepare future grant applications
                         (investment justifications).

                         Completed See Above.



        FINDING:         SOLE SOURCE PROCUREMENT AND MANAGEMENT OF
                         CONTRACT DELIVERABLES

                         Do Not Concur.

                         Recommendation #3: Establish policies and procedures to adequately
                         justify sole source procurements ensure that cost analyses are performed in
                         accordance with federal regulations, and obtain FEMA approval, as
                         necessary, for sole source procurements.

                         The initial steps taken for the Open-Market procurement was a protracted
                         process that lasted nearly one year. The selected bidder was ultimately
                         disapproved by the Governor of the Virgin Islands, which is allowable by
                         law. This resulted in the decision to pursue anOpen-Market Non-
                         Competitive Negotiation procurement in order to meet the established
                         deadline for submission of the Investment Justifications to DRS.
                         The Virgin Islands acknowledges that this type of procurement requires
                         approval from the grantor agency but was not obtained.

                         This contract was reviewed and approved by the VI Department of
                         Property and Procurement for procurement compliance; and vetted for




            The U.S. Virgin Islands Management of State Homeland Security Program 

                     Grants Awarded During Fiscal Years 2007 through 2009 


                                              Page 55

Appendix B
Management Comments to the Draft Report




                                                  4


                         legal sufficiency by the VI Department of Justice; and then signed by the
                         Governor.


                         Recommendation #4: Establish policies and procedures to ensure that
                         documentation regarding contract activities is maintained.

                         The Department of Property and Procurement (DP&P) retains all detailed
                         information relative to every procurement from the Request for
                         Procurement (RFP) to "Notice to Proceed". Copies of award and
                         summary documentation are forwarded to the user agency for its records.
                         VITEMA will utilize Homeland Security Information Network (HSIN) as
                         an additional repository for in-house contract documentation and records
                         related to grants awarded to the Virgin Islands from DHS effective 2012.

                         Recommendation #5: Disallow the amount paid under the contract
                         recover the $472,167 in State Homeland Security Program grant funds for
                         return to FEMA.
                         The deliverables outlined in the contract were not all met due to the
                         unforeseen event of Hurricane Omar, which became a declared disaster by
                         the President of the United States. At that juncture, priorities were re-
                         aligned to address the response and recovery efforts.
                         Additionally, VITEMA followed the GVI's procurement process; and
                         monies disbursed and the work performed was in line with the contract
                         terms and conditions.


        FINDING:         FINANCIAL MANAGEMENT DOCUMENTATION
                         Do Not Concur.
                         Recommendation #6: Develop a system to maintain required records to
                         assure compliance with grant requirements.

                         A system to maintain required records has already been implemented. The
                         ERP (VI Government financial management system), is the official
                         custodian of revenue and financial transaction records since 2007. All
                         transaction records including invoices, contracts, leases, etc, are scanned
                         into the system as a component of the payment process. The ERP is
                         backed-up daily at a storage facility in the US mainland. Additionally,
                         The ERP Grants Management Module has come online in recent months
                         for the purposes of segregating awards, budgets, grant adjustment
                         notifications; and grant revenues and expenditures.




            The U.S. Virgin Islands Management of State Homeland Security Program 

                     Grants Awarded During Fiscal Years 2007 through 2009 


                                              Page 56

Appendix B
Management Comments to the Draft Report




                                                    5


                          In addition to VITErvl:,\'s standard hard copy files, VITE!vlA will utilize
                          Homdand Security InConnutioll        NdviOrk (HSIN)       a<.;   an   additional
                          repository of documentation and records related to grants awarded to the
                          Virgin Islands from DRS dTectiye January 2012. DRS staIT provided a
                          preliminary HSl:.J training of the portals and state usage authorizations for
                          records management. It was highly recommended by DIIS staff to utilize
                          this platfonll for redundant records storage and retention; and VITE~IA
                          concurs with this recommendation.


                          Recommendation #7: RCCollstmct the records sllppot1ing the $3.429214
                          dra\Vll do\-vn for the FY 2007, 200S, and 2009 grant a\-vards.

                          VITEMA has reconstructed the records that \'\iere previously maintained at
                          Various other locations vihere the fonner 01lice of Homeland Security
                          personnel had them stored as well as those records stored on the ERP
                          since 2007. Considerable drOli \vas made to retrieve and collate these
                          records so as to be compliant with grant tenns and this recommendation.

                          (See records shipped to Foxx & Company)

                          Recommendation #8: Refund to Fmvf A any funds for expenditures that
                          cmmot be supported by appropriate documentation.
                          VITEMA does not concur. See response to Recommendation "Ff-6.
                          All funds expended by the Virgin Islands can be accounted for whether by
                          photos of equipment purchased; inventory documentation or other means
                          to prove that the grants' intcndcd purposcs were adhered to cvcn if thcrc
                          were inadequate records management controls in place AT THAT THvIE.
                          CotTedive adion has been undertaken hy the '"New" VITmvlA to ensure
                          improved compliance \-vith document management requirement of the
                          grant.

        FIl'\DING:        PROPERTY :\1ANAGEME'H CONTROLS AND
                          ACCOUl'\TABILITY

                          Concur.

                          Recommendation #9: Dcvelop and implemcnt procedures to ensure that
                          property records comply \vith inventol)l requirements for equipment
                          purchased with federal funds.

                          Although thc VI Department of Propcl1y and Procurement is the entity
                          responsible for maintaining inventory, it is apparent that this system is
                          inadequak to meet the requirements of the FedenLi Government. Therefore
                          VITEMA is in the process of creating an in-house inventory tracking
                          System by relTeating property records and advising program managers or




             The U.S. Virgin Islands Management of State Homeland Security Program 

                      Grants Awarded During Fiscal Years 2007 through 2009 


                                                Page 57

Appendix B
Management Comments to the Draft Report




                                                   6


                         in ventory requirements for all future purchases with grant fun ds.


                         Person Respons ible: Deputy Director, Grants Management

                         Due Date: May 30, 2012.



                         Recommendation #10: Withhold Federal grant fund awards until the
                         grantee is in compli ance with the property records and in ventory
                         requirements.


                         V ITEMA h as taken steps Lo turnaro und the !,;ollaLi on of properl y re(;ords
                         and to comply with inventory requirements. Currentl y,
                         VITEMA is utilizing a Microsoft Offi ce Exce l spreadsheet to capture
                         in ventory info nnation in the interim . Soli citations from variolls vendors
                         for the procurement of specialized software to achieve compli ance with
                         the recommendati on cited is underway. nlis process takes time to upl oad
                         in ventory data and requires suffic ient tim e to complete. We have
                         identified a realistic due date to compl ete this process as identified below.
                         Withholding federal grant funds would severely inhibit compl etion of this
                         proj ect and would have a negative imp act on achi eving compliance, as
                         we ll as, fu lfilling the mand ates of the grant.

                         Pe rson Responsible: Acting Deputy Director, Logistics

                         Due Date: May 30, 2012.

                         Rccommcndation #11 :          Conduct phys ical inventory and reconcile to
                         property records.


                         A phys ical in ventory has been conducted and now VITEMA is in the
                         process of reconciling property records. 111is phys ical inventory will be
                         updated bi-annuall y. G uidance is being provided to program managers on
                         accounting for current and future acquisitions utilizing federal and local
                         fun ds.


                         Person Responsible: Acting Deputy Director, Logistics
                                             Deputy Director, Grants Management

                         Due Date:              May 30, 2012




            The U.S. Virgin Islands Management of State Homeland Security Program 

                     Grants Awarded During Fiscal Years 2007 through 2009 


                                               Page 58

Appendix B
Management Comments to the Draft Report




                                                    7


        FINDING:         US E OF PURCHAS ED EQ UIPMENT

                         Do Not Conc ur.

                         R ecommendation #12 : Expedite th e procurement of radi os that are
                         compati ble with th e modul es, and install the modules as intended.

                         The Prior to the commencement of this audit, VITEMA had identified the
                         physical location of the encryption cards and has updated the relevant
                         info ml ation in th e intemal Microsoft Office Exce l spreadsheet whi ch is
                         being used to caphlre inventory infonnation.

                         Contact has been initiated with the vendor for the encryption cards to be
                         installed in those radios that can be encrypted, whi ch will meet th e
                         specifie d justificati on of the purchase. Training will be provided to th e VI
                         Bureau of Infonnation Technology technicians to ensure future
                         maintenml ce. Th e process for the installation of th e encrypti on cards will
                         begin on November 15, 20 II. VITEMA is committed to ensuring that all
                         future purchases will be interoperabl e.

                         Recommendation #13: If compatible radios are not procured, return the
                         $20 1,250 to FEMA.

                         All efforts are underway for the install ation of the encryption cards. (See
                         response to recommendation # 12)



        FINDING:         PROCU REMENT OF TRAINING

                         Do Not Concur.

                         Recommendation #14: Recover the $50,000 paid to the Uni vers ity of the
                         Virgin Islands as a professional service fee and return it to FEMA.

                         The Uni vers it y of th e Virgin Islands has an approved Indirect Cost Rate
                         Agreement. The approved rate of 65% for on-campus acti vities; and
                         approved rate of 25% for off-campus acti viti es that applies to VITEMA
                         and this training agreement.

                         Sin ce the total sub-grant was $200,000 for this training agreem ent, th e
                         $50,000 cited in this recommendation as a professional service fee
                         constitutes the equivalent of the indirect cost.




            The U.S. Virgin Islands Management of State Homeland Security Program 

                     Grants Awarded During Fiscal Years 2007 through 2009 


                                               Page 59

Appendix B
Management Comments to the Draft Report




                                                   8


                         Recommendation #15:         Require that future agreements with the
                         University of Virgin Islands be made through contractual agreements or
                         through sub grantee agreements.

                         VITEMA now has adequate available training facilities in each district and
                         it is not anticipated that these services will be required in the future other
                         than possible rental of a larger facility for specialized training. If it
                         becomes necessary to utilize the services of the University again,
                         VITEMA will enlist the expertise of the VI Attorney General's Office to
                         craft an acceptable agreement to be used on an "As Needed Basis".


        FINDING:         UNSUPPORTED PERSONNEL TIME CHARGES

                         Do Not Concur.

                         Recommendation #16:           Provide documentation that supports the
                         questioned salary costs of $568,069, including the $20,100 that exceeded
                         the 15% limit, or recover the amount not supported.

                         VITEMA is diligently working on compiling the requested information
                         relative to this finding. However, due to limited personnel and the short
                         turnaround, we have not completed this effort. It is expected to have the
                         process completed within six (6) months.

                         Recommendation #17: Establish controls to ensure compliance with
                         federal requirements concerning the limitations of grant funds used for
                         personnel costs.

                         The GVI has established standard operating procedures and best practices
                         relative to all grant personnel costs.    Currently, the ERP system has
                         controls installed that does not allow for any transactions to be executed
                         beyond the grant performance period. Internally, VITEMA is conducting
                         monthly reconciliations of personnel costs in compliance with the GVI's
                         grants monitoring process to ensure timely adjustments for proper payroll
                         allocation.

                         Recommendation #18: Ensure that employees prepare activity reports
                         that identify the specific grant to which the hours claimed are being
                         charged.

                         VITEMA has initiated steps to create an internal coding on Time Sheets
                         delineating grant tasks to coincide with grant personnel cost allocation.
                         Further, the Grants Management Manual has documented internal




            The U.S. Virgin Islands Management of State Homeland Security Program 

                     Grants Awarded During Fiscal Years 2007 through 2009 


                                               Page 60

Appendix B
Management Comments to the Draft Report




                                                   9


                          controls, which ensures that employees provide monthl y reports detai ling
                          activities for each gnmt peri od.

                          (Sec doclulIcnts shipped to FOll:x & Company)



        FI NDI NG:        FILI NG FI NA I 'CIAL REPO RT

                          Concur.

                          Recommendation #19: Establish and comply with procedures to ensure
                          that financial status reports are prepared and submitted in a timely manner
                          in accordance with federal requirements.

                          Since the inception of the "New" VITEMA policy and procedures have
                          been instituted and outlined in the Grants Management Manual in order to
                          report timely on grant activities. There has been a marked improvement in
                          timely reporting.     Changes and modifications in the DHS/FEMA
                          electronic reporting systems have been problematic resulting in some
                          instances with late reporting. VITEMA continues to partner with
                          DHS/FEMA to resolve these issues.

                          Person Responsible: Deputy Director, Grants Management

        FINDING:          HIGH RISK GRANTEE

                          Do Not Concur.

                          Recommendation #20: Assess the Virgin Islands grant performance and
                          based on that assessment determine if the State Administrative Agency
                          should be declared a high risk grantee.

                          The "New VITEMA" since its inception, has reached out to the grantor
                          agency to introduce the new agency personnel and to provide an overview
                          of their professional grants experience and to present issues discovered
                          once on-board. Moreover, past Homeland Security grant performance was
                          discussed and the VITEMA staff sought guidance as to corrective
                          remedial actions needed. DHS provided technical assistance and samples
                          of grants management best practices from other states. Significant
                          changes and improvements in Grants Management have occurred since the
                          reorganization of VITEMA. Timely reporting has improved; internal
                          controls have been established; documentation protocols have been
                          established; and overall grants management has been overhauled.

                          The findings cited in this report were from years prior to the
                          reorganization of the agency and does not accurately reflect the reality of




             The U.S. Virgin Islands Management of State Homeland Security Program 

                      Grants Awarded During Fiscal Years 2007 through 2009 


                                               Page 61

Appendix B
Management Comments to the Draft Report




                                                   10


                         the "New VITEMA". VITEMA recognizes that there are still areas that
                         require staff training to improve further compliance but this does not rise
                         to the level that VITEMA should be considered a "high risk" agency. We
                         do recommend that another performance audit of this nature be done in
                         three years and that this recommendation is revisited at that time if
                         sufficient improvement is not documented.

                         Recommendation #21: Develop and implement procedures with special
                         conditions and restrictions to ensure that future grants to the Virgin Islands
                         are managed in accordance with federal requirements and that the funds
                         are adequately safeguarded against fraud, waste, abuse, and
                         mismanagement.

                         During the 2009-2010 grant period, improvements have been realized and
                         demonstrated in reporting, inventory and procurement.            Staff has
                         participated in T/A Delivery and GVI Grants Management Module
                         training. Grants with further restrictions and conditions would hamper the
                         territory's ability to utilize the funds timely and effectively. Most
                         importantly it may have a negative impact on the territory being able to
                         comply with PPD-8 and protecting the people of the Virgin Islands during
                         all hazard emergencies.         Increased regulations, while they may
                         incrementally improve compliance, they would negatively impact the
                         territory's preparedness and stymie the Territory's ability to effectively
                         meet the core capabilities.

                         Recommendation #22: Consider requmng the State Administrative
                         Agency to hire a third party fiduciary to manage its grant funds and assist
                         in resolving the financial management issues.

                         VITEMA is vehemently opposed to a third party fiduciary to manage its
                         grant funds. Due to the economic crisis affecting both the Virgin Islands
                         and the Federal Government at this time, hiring of a third party fiduciary
                         would represent the least cost effective method of achieving the desired
                         results to improve compliance.




            The U.S. Virgin Islands Management of State Homeland Security Program 

                     Grants Awarded During Fiscal Years 2007 through 2009 


                                               Page 62

Appendix C
Homeland Security Grant Program Background


                    The Homeland Security Grant Program provides federal funding to
                    help state and local agencies enhance their capabilities to prevent,
                    protect against, respond to, and recover from terrorist attacks,
                    major disasters, and other emergencies. The Homeland Security
                    Grant Program encompasses several interrelated federal grant
                    programs that together fund a range of preparedness activities,
                    including planning, organization, equipment purchase, training,
                    and exercises, as well as management and administration costs.
                    Programs include:

                    •	   State Homeland Security Program provides financial
                         assistance directly to each of the states and territories to
                         prevent, respond to, and recover from acts of terrorism and
                         other catastrophic events. The program supports the
                         implementation of the State Homeland Security Strategy to
                         address the identified planning, equipment, training, and
                         exercise needs.

                    •	   Urban Areas Security Initiative provides financial assistance
                         to address the unique planning, equipment, training, and
                         exercise needs of high risk urban areas, and to assist in building
                         an enhanced and sustainable capacity to prevent, respond to,
                         and recover from threats or acts of terrorism and other
                         disasters. Allowable costs for the urban areas are consistent
                         with the State Homeland Security Program. Funding is
                         expended based on the Urban Area Homeland Security
                         Strategies.

                    In addition, the Homeland Security Grant Program includes other
                    interrelated grant programs with similar purposes. Depending on
                    the fiscal year these include:

                    •	   Metropolitan Medical Response System
                    •	   Citizen Corps Program
                    •	   Law Enforcement Terrorism Prevention Program
                         (through FY 2007)




            The U.S. Virgin Islands Management of State Homeland Security Program 

                     Grants Awarded During Fiscal Years 2007 through 2009 


                                           Page 63
Appendix D
Potential Monetary Benefits



                              Classification of Monetary Benefits

     Finding           Rec.    Funds To Be        Questioned         Questioned            Total
                       No.     Put to Better       Costs –            Costs –
                                    Use          Unsupported           Other
                                                    Costs
Contract
                        5                                             $472,167            $472,167
Provisions
Supporting
                        8                         $2,137,728 *                           $2,137,728
Documentation
Use of Purchased
                        13                                            $201,250            $201,250
Equipment
Procurement of
                        14                              $50,000                            $50,000
Training
Personnel Time
                        16                          $468,000          $100,069            $568,069
Charges
Total                                             $2,655,728          $773,486           $3,429,214
* We consider the entire $3,429,214 drawn down by the State Administrative Agency for the
FYs 2007, 2008, and 2009 awards as “at risk” because of the inadequate financial records. The
$2,137,728 listed above is the difference between the total $3,429,214 and the other itemized
amounts.




               The U.S. Virgin Islands Management of State Homeland Security Program 

                        Grants Awarded During Fiscal Years 2007 through 2009 


                                              Page 64
Appendix E
U.S. Virgin Islands Administrative Agency Organization Chart




             The U.S. Virgin Islands Management of State Homeland Security Program 

                      Grants Awarded During Fiscal Years 2007 through 2009 


                                            Page 65

Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             The U.S. Virgin Islands Management of State Homeland Security Program 

                      Grants Awarded During Fiscal Years 2007 through 2009 


                                            Page 66

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
